This document is subject to the provisions of the. Privacy Act of 1974, and may require redaction
before disclosure to third parties. No redaction has been performed by the Office of Inspector
General. Recipients orthis report should not disseminate or copy it without the Inspector General's
approval.




                    REPORT OF INVESTIGATION


 UNITED STATES SECURITIES AND EXCHANGE COMMISSION

            OFFICE OF INSPECTOR GENERAL


                                     Case No. OIG-505


        Failure to Timely Investigate Allegations of Financial Fraud


                                     February 26, 2010

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction
before disclosure to third parties. No redaction has been performed by the Office of Inspector
General. Recipients of this report should not disseminate or copy it without the Inspector General's
approval.

                                          Report of Investigation
           Failure to Timely Investigate Allegations of Financial Fraud
                                                   Case No. 505

                                          Table of Contents


Introduction and Summary	                                                                                              1

Scope of the Investigation..........•...................................................................................6


Relevant Commission and Government Regulations and Rules	                                                              8

Results of the Investigation	                                                                                          9
     1.	         McLaughlin's First Two Complaints to the SEC in February 2005
                 Were Not Reviewed or Analyzed                                                                         9
           A.	      SEC's Handling of McLaughlin Complaint No. 1                                      ~                9
           B.	      SEC's Handling of McLaughlin Complaint No. 2                                                       12

    II.	         McLaughlin's Third, Fourth, and Fifth Complaints to the SEC in the
                 Summer and Fall 2005 Were Not Reviewed or Analyzed                                                    13
           A.	      SEC's Handling of McLaughlin Complaint No. 3                                                       13
           B.	      SEC's Handling of McLaughlin Complaint No. 4                                                       14
           C.	      SEC's Handling of McLaughlin Complaint No. 5                                                       15
           D.	      Mclaughlin Complaint Nos. 4 and 5 Sat for Two Years in the
                    Enforcement Accounting Group Without Review                                                       15
           E.	      Enforcement Accounting Group Review Was Intended to
                    Swiftly Determine Whether an Investigation Was Warranted                                          17
           F.	      Failure of Enforcement Accounting Group to Follow Written
                    Procedures May Have Contributed to McLaughlin's Complaints
                    Not Being Acted Upon                ;                                                             18
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction
before disclosure to third parties. No redaction has been performed by the Office of Inspector
General Recipients of this report should not disseminate or copy it without the Inspector General's
approval

    III.	         McLaughlin's Sixth Through Seventeenth Complaints to the SEC in
                  2006 and 2007 Were Not Reviewed or Analyzed                                   19
            A.	      Failure to Follow Proper Procedures to Close the 2002
                     Metromedia Investigation Contributed to McLaughlin's
                     Complaints Sitting in Enforcement Without Action                           20
                     1.	    Background of the 2002 Investigation of Potential FCPA
                            Violations at Metromedia                                            20
                     2.	    Steps Necessary to Close an Enforcement Investigation               21
                     3.	    Closing Documentation CouldTake 1-2 Years to Process                23
                     4.	    Official Closing Documentation Was Not Prepared                    23
                     5.	    It Was Not Unusual for Inactive Enforcement
                            Investigations to Be Left Open for More Than a Year                 26
            B.	      SEC's Handling of Mclaughlin Complaint No. 6                               27
            C.	      SEC Form Letter Gave McLaughlin a Misimpression of What
                     the SEC Was Doing With Mclaughlin Complaint No. 6                        ;.29
            D.	      SEC's Handling of McLaughlin Complaint Nos. 7, 8, and 9                   .31
            E.	      Failure to Update NRSI Database Affected Ability to Effectively
                     Investigate Complaints                 '"                                  33
            F.	      SEC's Handling of McLaughlin Complaint Nos. 10-16                          33

    IV.	        Enforcement Finally Began to Examine McLaughlin's Complaints
                After He Contacted Congress and the Chairman's Office, But the
                Investigation Began Too Late for the SEC to Stop the Sale of
                Metromedia's Assets                                         ;                   34
            A.	    Head Enforcement Personnel Learned that Mclaughlin
                   Complaints Had Never Been Reviewed, Analyzed, or
                   Investigated                                                                 35
            B.	      The 2002 Metromedia FCPA Investigation Had NotBeen
                     Properly Closed                                                            36
            C.	      Assistant Director Claimed Not to Have Received McLaughlin's
                     Complaints                                                                 37
            D.	      The Decision Was made to Leave Open the Unrelated 2002
                     Metromedia Investigation                                                  .40




                                                 11
This document is subjed to tbe provisions of the Privacy Ad of 1974, and may require redaction
before disclosure to third parties. No redaction has been performed by the Office of Inspedor
General Recipients of this report should not disseminate or copy it without tbe Inspector General's
approval.

    V.	      Enforcement Finally Began an Examination of McLaughlin's

             COmQlaints                                                                         41

          A	   lfbX7XCfJandj(bX1}(C)      I
                                      Were Briefly Assigned to the

                 Investigation                                                                  41

          B.	   Staff Changes and Failure to Update NRSI Affected Referral of

                Complaints                                                                      43
   '"
                                                                                                      .......

          c.	   In Late November 2007, the Enforcement Accounting Group

                Began to Analyze Mclaughlin's Complaints as Part of the

                Enforcement Investigation                                                      .44

          D.	   Examination of Mclaughlin's Complaints Began Too Late for

                the SEC to Take Meaningful Action                                               45

          E.	   Investigative Steps Taken By Enforcement to Analyze

                Mclaughlin's Complaints                                                       ..46

          F.	   The Enforcement Attorneys Determined the Metromedia

                Investigation Should Be Oosed                                                  .47

          G.	   The Metromedia Investigation Was Closed Over a Year After

                the Enforcement Attorneys Began the Closing Process                            .48

          H.	   After Conducting an Independent Review, a Deputy Director of

                Enforcement Supported Closing the Investigation                                .50



Conclusion	                                                                                    51




                                                                                                      ':':.




                                                iii
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.



                             REPORT OF INVESTIGATION
         UNITED STATES SECURITIES AND EXCHANGE COMMISSION

                    OFFICE OF INSPECTOR GENERAL


         Failure to Timely Investigate Allegations of Financial Fraud

                                          Case No. OIG·505


                                    Introduction and Summary

       On or about November 16, 2008, the Securities and Exchange Commission
("SEC" or "Commission") Office ofinspector General ("OIG") opened an investigation
into whether the SEC had vigorously enforced the securities laws with regard to
complaints received from Matthew Kevin McLaughlin ("McLaughlin") about
Metromedia International Group, Inc. ("Metromedia,,)l.

        The OIG investigation revealed that from February 2005 through November
2007, the SEC received more than twenty complaints from Mclaughlin, a registered
representative, raising serious allegations of financial fraud about Metromedia.
McLaughlin's complaints primarily focused on allegations that Metromedia's financial
reporting was delinquent and erroneous, Metromedia assets were being sold at below
market prices, and Metromedia management had engaged in self-dealing. Mclaughlin
repeatedly requested·that the SEC stop the proposed acquisition of Metromedia by an
investor group until the SEC had investigat~d his allegations.

        The GIG investigation found that from February 2005 through September 2007, at
least sixteen of McLaughlin's complaints were provided to current or former staff in the
Division of Enforcement ("Enforcement"). However, the OIG investigation further
found that McLaughlin's allegations were not reviewed, analyzed, or investigated over
this two-and-a-half-year peri~d dueto multiple instances of mishandling and
mismanagement.

        SEC records and witness testimony showed that McLaughlin's first two
complaints were referred to the Enforcement's Office of Chief Accountant
("Enforcement Accounting Group"), but were not reviewed. McLaughlin's first
complaint was received by a Legal Advisor in the Enforcement Accounting Group. The
Legal Advisor sent it to a Branch Chief in Enforcement, who was listed in Enforcement's
database as having an open investigation of Metromedia. Although the Legal Advisor
specifically asked the Branch Chief to let him know if his branch was not going to be

I Metromedia was a Delaware media and communications corporation that developed communications
businesses in Eastern Europe, the former Soviet Republics, and other emerging markets. Metromedia is
currently a private company that controls interests in communications businesses in the country of Georgia.
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.


pursuing the complaint and the Branch Chief immediately e-mailed back, "1 know my
branch will not be pursuing this," the Legal Advisor did not take any further action on the
complaint and did not forward it to anyone else in the SEC for review or investigation.

         McLaughlin's second complaint was also received by the Legal Advisor, who
forwarded it to the Enforcement Accounting Group's Administrative Assistant requesting
that this second complaint be added "to the referral file." However, no "referral file" was
created, and although the procedure was for the Administrative Assistant to log
complaints into the Enforcement Accounting Group's Financial and Accounting
Referrals Tracking System, McLaughlin's first two complaints were not entered into the
system and were not reviewed or analyzed.

       SEC records indicated that McLaughlin's third complaint was referred to a former
Enforcement Branch Chief who had recently left Enforcement to join another SEC office.
The former Branch Chief did not recall receiving the complaint, and there is no evidence
that McLaughlin's third complaint was ever reviewed.

        Similar to Mclaughlin's first and second complaints, McLaughlin's fourth and
fifth complaints were referred to the Enforcement Accounting Group. The OIG
investigation found that while these complaints were entered into the Accounting
Group's tracking system and assigned to an accountant for review, they sat unreviewed
with the accountant for more than two years.

         The OIG investigation further found that the Enforcement Accounting Group
employed review was a "referral triage process," which was intended to be only a swift
initial review to determine whether the complaint was worthy of further investigation.
McLaughlin's fourth and fifth complaints were assigned to an Assistant Chief
Accountant for triage in or about September 2005. We found that the Assistant Chief
Accountant never reviewed or analyzed these complaints. The Assistant Chief
Accountant remarked that his impression was that the complaints "looked real
complicated, like it would require some work," but the work-was not performed. One
year later, in September 2006, the Assistant Chief Accountant reported to his supervisor
that the McLaughlin complaints were one of three uncompleted referrals that he had
outstanding at that time and that he would complete his review of the McLaughlin
complaints "as soon as possible." However, the 010 investigation found that over a year
after informing his supervisor that he would complete his review "as soon as possible"
and two years after receiving the complaints, he had still not completed his review. The
Assistant Chief Accountant explained that he had reviewed other complaints during that
time period and McLaughlin's "was always one at the bottom of the pile." We found that
the Assistant Chief Accountant's supervisors received periodic updates showing that the
Assistant Chief Accountant's review was not completed, but took no action to follow-up
with him.

      We also found that the Enforcement Accounting Group's referral procedures for
monitoring the progress of referrals of complaints like those submitted by McLaughlin


                                                    2

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before

disclosure to third parties. No redaction has been perfonned by the Office of Inspector General.

Recipients of this report should not disseminate or copy it without the Inspector General's approval.



were not followed in the 2005-2007 time period. For example, regular meetings to
decide the disposition of referrals were not being held and no timelines were established
for the triage review process.

         Despite the lack of action on his prior complaints, we found that Mclaughlin
 continued to submit complaints to the SEC in 2006. According to SEC records,
 McLaughlin's sixth, seventh, eighth, and ninth complaints were submitted to the SEC in
·2006 and 2007 and referred to an Enforcement Staff Attorney who had left an
 investigative position to assume another position within Enforcement. The Staff
 Attorney testified thatall of McLaughlin's complaints that the attorney received were
 forwarded to the Assistant Director of the attorney's fonner group. The DIG
 investigation revealed that these complaints were not reviewed, analyzed, or investigated
 by anyone.

        We found that a failure to properly close an earlier unrelated investigation of
Metromedia or to update staff information in Enforcement databases contributed to the
SEC's failure to review McLaughlin's sixth through ninth complaints. The OIG
investigation revealed that after working in Enforcement for years, the Staff Attorney and
the Assistant Director working on the unrelated investigation did not know the
procedures necessary to close an- investigation. We also found that it could take up to
two years for Enforcement's Office of Chief Counsel to complete the investigation
closing process after the staff submitted the proper paperwork to close an investigation.
Moreover, the status of investigations and the identity of the staff assigned to
investigations were often not updated in Enforcement databases causing complaints to be
sent to the wrong SEC personnel.

        Thus, while the Assistant Director, Branch Chief, and Staff Attorney working on
the unrelated 2002 Metromedia investigation had decided to close that investigation, they
failed to take the necessary steps to formally close it. As a result, McLaughlin's sixth,
seventh, eighth and ninth, complaints were mistakenly sent to the Enforcement attorneys
who worked on this unrelated, and not formally closed, Metromedia investigation.
Because these Enforcement attorneys were not actively working on the unrelated
Metromedia investigation, they did not review McLaughlin's complaints that were sent to
them. In addition, the Assistant Director did not inform anyone that his group was not
going to be reviewing or considering the complaints and, accordingly, McLaughlin's
complaints were never sent or referred to another office for review or investigation.

        Meanwhile, despite the fact that no one at the SEC was reviewing or investigating
McLaughlin's complaints, the SEC responded to McLaughlin's sixth complaint on March
16,2006, With a letter stating, "We are taking your complaint very seriously and have
referred it to the appropriate people withinthe SEC." In actuality, at that time,
McLaughlin's sixth complaint (along with McLaughlin's first five complaints) had not
been "referred to the appropriate people within the SEC," and not only was it not being
considered "very seriously," it was not being considered at all.      .



                                                    3
Tbis document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by tbe Office of Inspector General.
Recipients oftbis report should Dot disseminate or copy it without the Inspector General's approval.


        SEC records further reflected that McLaughlin sent his tenth through sixteenth
complaints to the SEC in August and September 2007, but the complaints were not
immediately referred for review. In late September 2007, Mclaughlin sent his
seventeenth complaint to an official in the fonner SEC Chairman's Office, complaining
about the SEC's failure to investigate Metromedia. This complaint was then circulated
among head Enforcement personnel, and it was detennined that McLaughlin's
complaints should be reviewed. McLaughlin's tenth through sixteenth complaints.were
then referred to the Enforcement Assistant Director who had received earlier Mclaughlin
complaints (and not reviewed them) and whose group was tasked with evaluating
McLaughlin's allegations. In October and November 2007, staff assigned to the
investigation received at least five additional complaints from Mclaughlin.

       Thus, the DIG investigation found that by late September 2007, no Enforcement
group had reviewed, analyzed, or investigated any of the at least sixteen complaints that
Mclaughlin had submitted to the SEC from February 2005 through September 2007.

        The OIG investigation also found that after McLaughlin contacted the Chainnan's
Office and multiple members of Congress, Enforcement finally conducted an appropriate
review of McLaughlin's complaints. The DIG investigation found, however, that soon
after Enforcement began its review of McLaughlin's complaints, the Enforcement
attorneys assigned to the investigation determined that, even if McLaughlin's allegations
were true, it was too late to take meaningful action against Metromedia. The
Enforcement attorney detennined that Metromedia was no longer a public company
registered with the SEC2 and many of the potential claims would fall outside the statute
of limitations.

        The DIG investigation found that beginning in late 2007, Enforcement attorneys
assigned to the investigation finally performed the extensive workanalyzing
McLaughlin's complaints that should have been done years earlier. Work perfonned by
the staff included interviewing Mclaughlin, analyzing his complaints, reviewing
Metromedia's filings, interviewing McLaughlin's accountant, speaking to other law
enforcement organizations familiar with McLaughlin's allegations, and reviewing
documents from private litigation involving Metromedia.

        The GIG investigation also found that there were additional investigative steps
that the Enforcement staff did not undertake, including requesting Metromedia audit
workpapers and interviewing Metromedia executives. The Associate Director in
Enforcement responsible for the investigation testified that the additional steps would
have been undertaken if they had concluded that a full investigation of Metromedia
should have been pursued.




2 Metromedia had been sold in a merger in August 2007 and had terminated its registration with the
Commission in early September 2007.


                                                    4
 This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
 disclosure to third parties. No redaction has been performed by the Office of Inspector General.
 Recipients of this report should not disseminate or copy it without the Inspector General's approval.


         In April 2008, the Enforcement attorneys assigned to the investigation determined
 that the Metromedia investigation should be closed due to the age of the alleged conduct,
 the fact that Metromedia was no longer a public company registered with the SEC, and a
 lack of evidence that Metromedia or its executives had committed fraud. However, the
 investigation was not closed at that time, at least in part, because the accountant assigned
 to the investigation (who had been the supervisor responsible for McLaughlin's
 unreviewed fourth and fifth complaints) would not agree that the investigation should be
 closed. The Enforcement Accounting Group, which had been tasked with reviewing
 McLaughlin's complaints since 2005, requested even more time to consider
 McLaughlin's allegations and to review Metromedia filings. The Accountant assigned to
 the Metromedia investigation agreed in November 2008 that the investigation should be
 closed.

        In January 2009, the Associate Director responsible for the investigation
 requested that an Enforcement Deputy Director provide a second review of the issues
 McLaughlin had raised and determine whether closing the investigation was appropriate.
 Mter the Deputy Director independently reviewed McLaughlin's allegations and
 supporting documentation and interviewed him, the Deputy Director supported the staff's
 decision to close the investigation due to the age of the conduct and the difficulty in
 obtaining evidence. In October 2009, the Metromedia investigation was officially closed.

         In summary, the OIG identified significant flaws in the processes Enforcement
 used to handle complaints and to close cases. The OIG investigation concluded that from
 February 2005 through September 2007, multiple McLaughlin complaints were
 mishandled and mismanaged and, consequently, these complaints were simply not
 reviewed, analyzed or investigated. The OIG also concluded that by late 2007 and early
 2008, when McLaughlin's allegations were finally reviewed by Enforcement staff, a full
 investigation of Metromedia was no longer meaningful because many of McLaughlin's
 allegations were stale and Metromedia was no longer a public company registered with
 the Commission.

          Accordingly, the OIG is referring this Report ofInvestigation ("ROI") to the
. Director of Enforcement, the Director of the Office of Investor Education and Advocacy
  ("OlEA"), the Associate Executive Director for Human Resources, the Associate General
  Counsel for Litigation and Administrative Practice, and the Ethics Counsel. We
  recommend that SEC Management carefully review the portions of this ROI that relate to
  performance deficiencies by those employees who still work at the SEC, so that
  appropriate action (which may include performance-based action, as appropriate) is
  taken, on an employee-by-employee basis, to ensure that future complaints are better
  handled and that the mistakes outlined in this ROI are not repeated. We are also making
  specific recommendations with respect to the Enforcement complaint handling system
  and case closing process to ensure that the flaws we identified are remedied.




                                                    5

This document is subject to tbe provisions of the PriV2C)' Ad of 1974, nd may ltiIuirt redaction befort
disclosure to third parties. No redaction bas been performed by tbe OffICe or laspeccor Genenl.
Recipients of this nport should Dot disscmill2te or tOpy il without tb~ Inspector GenulIIl's approval.



                                    Scope of the Investigation

       The DIG obtained and reviewed voluminous documents related to this matter,
including the e-mails of current and former SEC employees; records maintained by the
OlEA; documents produced by Enforcement related to investigations of Metromedia
from 2002 to 2009; information from Enforcement's internal case lIacking systems; and
documents submitted to the DIG from McLaughlin.

        The OIG took sworn, on-the-record testimony of the following witnesses:

        (1)	 Matthew Kevin Mclaughlin, Registered Representative, taken on December

             12,2008, excerpted portions of which are at Exhibit 1.

        (2)	 (b){7){C)         ranch Chief, Division of Enforcement, Securities and

                Exchange Commission, taken on September- 24,2009, excerpted ponions of

                which are at Exhibit 2.

        (3)	   j(b)(7)(C)    I
                           Staff Attorney, Division of Enforcement, Securities and

               Exchange Commission, taken on September 25, 2009 and September 29,

               2009. excerpted portions of which are at Exhibit 3.

        (4)	 l(b)(7){C)                                                     Division of I
               Enforcement. Securities and Exchange Commission. taken on November 3,
               2009, excerpted portions of which are at Exhibit 4.
        (5)	   1(b)(7)(C)    I Assistant
                                     Chief Accountant, Division of Enforcement,

               Securities and Exchange Commission, taken on November 4. 2009,

               excerpted portions of which are at Exhibit 5.

        (6)	 !lb){7)(C)   ~dministrative Assistant. Division of Enforcement, Securities

              and Exchange Commission, taken on November 6, 2009, excerpted portions

              of which are at Exhibit 6.

        (7)	 l(b)(7)(C)        IStaff Attorney,l(b){7){C)                   kformer

              Branch Chief, Division of Enforcement). Securities and Exchange

              Commission. taken on November 10. 2009, excerpte:rl portions of which are
              ., Exhibit 7.
        (8)	 1"X1)(O)         ISpecial Counsel, Office of Inveslor Education and

              Advocacy, Securities and Exchange Commission, taken on November 12.

              2009, excerpted portions of which are at Exhibit 8.

        (9)	 l<b){7)(C)      IAssociate Chief Accountant. Division of Enforcement.                        '.,'
              Securities and Exchange Commission, taken on November 17-18.2009,
             excerpted ponions of which are at Exhibit 9.
        (10)	 George Curtis. former Special Advisor to the Director, Division of

               Enforcement and former Deputy Director, Division of Enforcement,

               Securities and Exchange Commission, taken on November 24, 2009,

               excerpted portions of which are at Exhibit 10.



                                                   6
This document is subject to the provisions of the Privacy Act of 1974. add may require redaction befo~
disclosure 10 third parties. No redaction has been perfonned by the Office of IllSpeclor General.
Recipients of this report should nol disseminate or copy il withoutlbe Inspedor General's approval.


            (11)[(bK7)(C)       IStaff Attorney, Division of Enforcement. (former Staff
                   Attorney, Division of Enforcement and former Staff Attorney, Office of
                   Chief Counsel. Division of Enforcement), Securities and Exchange
                   Commission, taken on November 25, 2009, excerpted portions of which are
                   at Exhibit II.
            (12) Susan Markel, former Chief Accountant, Division of Enforcement.
                 Securities and Exchange Commission, taken on December 4, 2009.
                 excerpted portions of which are at Exhibit 12.
            (13) Joan McKown. Chief Counsel, Office of Chief Counsel. Division of
                 Enforcement, Securities and Exchange Commission, taken on December 10,
                 2009, excerpted portions of which are at Exhibit 13.
            (14) Christopher Conte, Associate Director, Division of Enforcement, Securities
                 and.Exchange Commission, taken on December 15.2009, excerpted
                 portions of which are at Exhibit 14.

      In addition, the OIG also conducted the following interviews of persons with
knowledge of relevant facts in the investigation:

            (I)	 L".cK.c",,'C;;'-;__-;;-...J Assistant Director, Division of Enforcement. Securities
                  and Exchange Commission, conducted on January 4, 2010, at Exhibit 15.
            (2)	 1{b)(1)(C)         IBranch Chief, Division of Enforcement, Securities and
                 Exchange Commission, conducted on January 8, 2010 and January 26,
                 2010, at Exhibit 16 and 17, respectively.
            (3)	 l(b)(7)(C) II(b)(7)(C) II(b)(7)(C) IOffice of Mergers and Acquisitions,
                 Division of Corporation Finance, Securities and EXChange Commission,
                 conducled on January 13, 2010. at Exhibit 18.
            (4)	 [(b)(7)(C)     ICase Management Specialist, Division of Enforcement.
                   Securities and Exchange Commission, conducted on February 2, 2010. at
                   Exhibit 19.

          The OIG also obtained the Official Personnel Folders "OPFs") of Enforcement
Assistant Director (b)(7)(C)                                                3. (b)(7)(C)               Staff
Attorne ·ri(b~)(~'~)(C;')~C.:"::'::"""bK""")("c'''''''-;E;-n.li-=-o-rce-m-.Je~l Staff Attomey(b)(1)(C)
(b}(7)(C)     and Enforcement Staff Attomeyl<_bK                        _1}(_C_'           _




l'(bK1)(C) Id'·d not ••••    (bK7KC)	
                     _ ,·fv,.L.:'-"-'--_,---,-,---_--'                ~
                                                       Joan McKown, Enlorcemenl Chief Counsel,
(b)(1)(C)                                unable 10 provide testimony!'~b::j(:,.7j(::.C::'~~-~~----
(bX1)(C)                                                  McKown Testimony Tr. at pg. 27.


                                                       7

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.



               Relevant Commission and Government Regulations and Rules

        The SEC's Enforcement staff has the obligation to continuously and diligently
investigate instances of securities fraud, as set forth in the Commission Canon of Ethics
in the Code of Federal Regulations. The Policy of the Canon recognizes that "[ilt is
characteristic of the administrative process that the Members of the Commission and their
place in public opinion are affected by the advice and conduct of the staff, particularly the
professional and executive employees.,,4 Hence, "it shall be the policy of the
Commission to require that employees bear in mind the principles specified in the
Canons.,,5 The Preamble of the Canon clearly states the serious duty placed upon
members of the Commission and the staff, as follows:

                  Members of the Securities and Exchange Commission are
                  entrusted by various enactments of the Congress with
                  powers and duties of great social and economic
                  signifiCance to the American people. It is their task to
                  regulate varied aspects of the American economy, within
                  the limits prescribed by Congress, to insure that our private
                  enterprise system serves the welfare of all citizens. Their
                  success in this endeavor is a bulwark against possible
                  abuses and injustice which, if left unchecked, might
                  jeopardize the strength of our economic instituti0Il;s.6

        The Canon further provides: ~'In administering the law, members of this
Commission should vigorously enforce compliance with the law by all persons affected
thereby."? The Canon also affirms that "Members should recognize that their obligation
to preserve the sanctity of the laws administered by them requires that they pursue and
prosecute, vigorously and diligently but at the same time fairly and impartially and with
dignity, all matters which they or others take to the courts for judicial review."s




4
    17 CF.R. § 200.51 (2009).
5 [d.
6
  17 CF.R. § 200.53 (2009).
7
  17 CF.R. § 200.55 (2009).
8
  17 CF.R. § 200.64 (2009).


                                                   8
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.


                                    Results of the Investigation


 I. McLaughlin's First Two Complaints to the SEC in February 2005 Were Not

    Reviewed or Analyzed


       On February 8, 2005, the National Association of Securities Dealers ("NASD")
(now the Financial Industry.Regulatory Authority) referred a complaint ("McLaughlin
Complaint No. 1,,)9 regarding Metromedia to the SEC's OlEA. On February 15,2005,
McLaughlin sent a "follow-on" complaint ("Mclaughlin Complaint No.2") directly to
the SEC. Although McLaughlin's February 2005 complaints were received by the SEC,
they were not reviewed due to errors made in the Enforcement Accounting Group.

         A. SEC's Handling of McLaughlin Complaint No.1

        On February 8, 2005, the NASD referred Mclaughlin Complaint No. 1 regarding
Metromedia to OlEA. The ten-page complaint was dated February 2, 2005 and sent by
Mclaughlin, a registered representative in Des Moines, Iowa, to Mary L. Schapiro, then
the president of NASD Regulation. Exhibit 20.

        The first page of Mclaughlin Complaint No. 1 was a handwritten cover letter
stating that it was in reference to a "Metromedia Demand Letter." MCEaughlin wrote in
the body of the cover letter that "[t]he last of Metromedia's assets are up for sale, and I'm
doing all I can to get answers to important questions." [d.

        The second and third pages of Mclaughlin Complaint No. 1 consisted of a cover
e-mail for a January 28, 2005 five-page demand letter from McLaughlin's attorneys to
Metromedia's Board of Directors. [d. The letter demanded that the Board of Directors
take "legal action" against five former or current Metromedia officers and directors for
"causing substantial damage to Metromedia." [d. The letter contained four primary
allegations. [d. First, it raised questions about Metromedia's purported "liquidity crisis,"
asserting that in 2003 Metromedia restated its financial statements for earlier periods and
that these restatements indicated the "disappearance" of over $70 million "from the asset
side of Metromedia's balance sheet" for which Metromedia "ha[d] failed to account." [d.
In support of the argument that assets had disappeared, the letter stated that Metromedia's
auditors had resigned after having "taken issue with the Company's lack of disclosures"
and after having "described significant internal control deficiencies in the Company's
reporting of financial data." [d.

        The next major allegation contained in the demand letter was that "Metromedia
has disposed of its 'non-core' assets at below-market prices, without any due diligence on
the part of the Company's Board of Directors regarding the fairness ofthe consideration


9 Hereinafter, any letter, e-mail, or other correspondence from Mclaughlin to OlEA is referred to as a
"complaint."


                                                    9
 This documenl is subject to the prol'iSiODS or the PriVAcy Act or 1974, aDd may rtqui~ redaction bero~
 disclosure to third parties. No redaction has been perfonned by the Office or Inspector GeDenl.
 Recipients of this report should DOl disseminille or ropy il witbout tbe laspector Genenl's approval.



 received by the Company for the assets." ld. The letter provided examples of four such
 transactions, all occurring in 2003. Id. The third allegation was that the proposed
 acquisition of Metromedia by an investor group for $300 million was "grossly
 inadequate." ld. The final allegation in the demand letter was that Metromedia's "'ate
 filing of disclosure agreements required by the SEC also raise[d] concerns about the
 quality of its disclosures and the integrity of its controls and corporate governance." ld.
 The last two pages of Mclaughlin Complaint NO.1 contained a minor correction to his
 submission. ld.

           On February 9, 2005. (bX7XC)            (b}(7)(C)     of the OlEA e-mailed the
 NASD referral containing Mclaughlin Complaint No.1 to (b}(7)(C) (bX7)(C) (bX7)(C)
 (b)(7)(C)                                             in the Enforcement Accounting Group.
 Testimony Transcript of (b}(7)(C)                      Testimony Tr.") November 3. 2009. at
 Exhibit 4, at pgs. 11-12; Exhibi~ 20. (bX1)(C) sent the complaint to~)(7)(C) lbecause he
 viewed the complaint as making all~gations of financial fraud and, at the time.l(b}(1)(C)                 I
 was "the designated OlEA liaison for referrals from OlEA to Enforcement regarding
 financial fraud.',lo Testimony Transcript ofi(b)(7}(C)                     ITestimony Tr."}
 November 12, 2009, at Exhibit 8, at pgs. 19-20;I{b)(7)(C) ITestimony Te. at pg. 16.

                                           I
           Later that evening.l(b){1)(C) e~mailed Mclaughlin Comolaint o. 1 tol(b)(7XC)
 (b)(1)(C) (b}(7}(C)     n Enforcement Branch Chief, and copied (b)(7)(C) (bX7XC)
 IlbK7)(C)        ISusan Markel ("Markel''), I(bK7)(C) IllbK7)(ClIl(bK7)(C) 11_(bll'llCl                  _
  and ltbX7)(C) Ion the e-mail. Exhibit 20.

         Other than!tb}(1)(C) ~an~(bX1)(C)        I
                                           all oCthe e-mail recipients were involved in
 Enforcement's complaint handling process. [(b)(~was an Assistant Director in
 Enforcement and (b)(1)(C)                                         which reviewed referrals
 related to (b)(1)(C)                          r. Exhibit 21; (b)(7)(C)         Interview
 Notes (b)(7)(C) Interview Notes") January 4, 2010, at Exhibit 15. Markel was the
 Enforcement Chief Accountant and a co~head of the Financial Fraud Task Force (along                              ~-   .
 with fanner Associate Director Paul Berger). Testimony Transcript of Susan Markel
 ("Markel Testimony Tr.") December 4, 2009, at Exhibit 12, at pg. 1o;I"K7)(C) llnterview
 Notes. Markel testified that she "was responsible for the referrals that we received" and

 10
           C leslified that he "may have made a mistake" and should have searched !he Name Relationship
 Search index ("NRS''') database for an open investigation of Metromedia. {(b)(7){C) ITeslimony Tr. at pg.
 20. I£ he had searched NRSI. he should have discovered that there was an open investigalion of
 Metromedia and, according 10 OlEA " policy at the lime, sent the complaint to"one of the attorneys
~ible for an open case if Ihere is an open case." Id. ~erefore, he would have sent the complaint 10
~who was listed in NRSI as the Branch Chief on the ttJen-open invesligation of Metromedia.
 However, [UllUllc:LJ failure to idemify thai there was an open investigation of Metromedia NRSI does not
 appear to have affected the handling of Mclaughlin'uompiaint because the Enforcement Accounting
 Group did search NRSI and sent the complaint 10E)(cTJln addition, the information in NRSI had not
 been updated to show that the Metromedia investigation was no longer active. IfICb}(7)(Cl Ihad learned that
 the investigation was flO longer active, OlEA procedure would have called for him to send the complaint to
l(bX1)(Cj designated liaison in Enforcement, which is to whom he referred the complaint initially. lei. at pgs.
 20.23.


                                                       10

This document is subject 10 the provistoos or the Privacy Act or 1974, aDd may require redaclion berore
disclosure to third parties. No redactioo bas been ptrfonned by the Office or Inspector General.
Recipients or tlld report sllould DOt disseminace or ropy It without the Inspector Gueral's appronl



"was involved in delegating the referrals and working on the follow-through:' Markel
Testimony Tr. at pg. 10. IlbX1}(C) I was an Associate Chief Accountant in the Enforcement
Accounting Grou~ and assisted Markel with handling referrals. Markel Testimony Tr. at
pg. at pgs. 24_25.I(b)(7)(C) !was an administrative assistant in the Enforcement Accounting ­
Group and was responsible for entering the referrals into the Enforcement Accounting
Group's Financial and Accounting Referrals Tracking System. I I Afterl(b)(7)(C) I entered the
referrals into the system,!(b)(7KCljor Markel would assign the referrals to a supervisor in
the group who would, in turn, assign the referral to one of his or her staff for review. Id.
at pg. 25; 1")(7)(0) ITestimony Te. at pg. 97; Testimony Transcript ofi")(1)(C)             I
Testimony Tr.") November 6, 2009, at Exhibit 6, at pgs. 6-7; Markel Testimony Tr. at
pgs.18-19.

        In the February 9, 2005 e-mail to l<bX7XC) IICbX7XCII asked l<bX7)(C I to let him know if
his group was not going to investigate the attached Metromedia referral from OlEA.
Exhibit 20.. The e-mail stated.

                 l(b)(7)(C)I-I received the attached email from OlEA. It is
                  [sic] concerns Metromedia International & would seem to
                  be part of your open investigation H0..Q9695. Please let
                  me know if you are NOT going to pursue this ....

[d.

        I<b)(1)(Cll appeared to have sent Mclaughlin Complaint NO.1 to IlbX1}(C I after
perfonning a search in the NRSI system, which contains a record of matters under
investigation and the staff person responsible for each maUer. Ilbl(7}(CIITestimony Tr. at
pgs. 17-19. b 7 C branch in the Enforcement Division had opened an inquiry into
Metromedia for self- reporled violations of the Foreign Corrupt Practices Act ("FCPA")
on November 26, 2002, and it had been converled to an investigation on February 1,
2003. Exhibit 22.

       Six minutes after receiving the e-mail from Ilb){7)(C) I b C responded to Ilb){7)(C) I
without copying anyone on his response. Exhibit 23. [lb)(7)(C Istated thai that his branch
would not be pursuing Mclaughlin Complaint No.1:

                 The Metromedia matter is in the queue to be closed. While
                 I haven't seef)!] the referral,l know that my branch will not
                 be pursuing this.

Id.



II The Enforcement Accounting Group's referral tracking system was not linked to Enforcement's larger
NRSI system and could nol be searched by other groups in Enforcement or by OlEA. ~bK1Xc) ITestimony Tr.
at pg. 21;llb)(1)(CI ITestimony Tr. at pg. 32.


                                                   11
 This document is subject to tile provisions or the Privacy Act or 1974, and may require r'tdaction berore
 disclosure 10 third parties. No redaction has been performed by the OffICe or laspector Geoel'1lll.
 Recipients or this report should nOI disseminate or copy it withoullhe Inspednr Geoenl's approViI.


        On February 10, 2005, ~ sentl<b){7)CC) la second e-mail (again not copying
 other members of the Enforcement Accounting Group), stating that he had reviewed part
 of Mclaughlin Complaint No. I, and it did not contain issues similar to the ones his
 branch had investigated. Exhibit 24. The second e-mail stated,

                   Having read the first few pages of [the] demand letter, it
                   appears that there is no similarity in issues between the
                   Metromedia case we had opened and this one. Ours dealt
                   with a couple of stale FCPA issues, based on its
                   investments/joint ventures with Eastern European
                   Companies.

 Iii

         A few minutes later, 1(b){7){C) Iresponded thanking l(bX7)(C I for his response. [d.
  b C testified that he «kicked" the complaint "back to"l(b){7)(C)! and believed a new
 investigation needed to be opened to look at Mclaughlin's complaint. b C Testimony
 Tr. at pg. 41. 12

        Notwithstanding b 7 C evmail to ICb)(7)(C) Ithat his branch would not be pursing
 Mclaughlin Complaint No. 1.llb)(7)(C) Idid not forward Mclaughlin Complaint NO.1 to
 anyone else within lhe SEC and it was not reviewed or analyzed.

          B. SEC's Handling of McLaughlin Complaint No.2

            On February 17,2005, ;".7)(0) Iof the OlEA forwarded 1"X7)(C} la February 15,
  2005 complain. from Mclaughlin ("Mclaughlin Complaint No.2''). Exhibit 25.
 l(b)(7)(C) I wrote that the evmail was a "followvon" to the e·mail he had sent on February 9.
 2005 regarding Metromedia International. /d. Mclaughlin stated in the e·mailthat he
 was contacting the SEC at the suggestion of an NASD employee and that the SEC should
 contact Mclaughlin or his attorneys with any questions. At the end of his e-mail,
.Mclaughlin stated that Metromedia's assets "still (were] being sold to entities williout
 any evidence of due diligence being done in regard to the identities of the buyers, and
 with other important questions still remaining unanswered." [d.

        On February 17. 2005, b C) replied to Mclaughlin thanking him for his
February 2005 complaints and stating that they were referred "to the appropriate SEC
office or divisions." l(b)(7)(C) Ialso stated that "because the SEC generally conducts its


 12 As discussed below in Section IV. c., the relationship between ~ and Assistant Directon<b)(7){CI
1(b){7)(C) lwas frayed, which appeared to have affected IlbKlXCl Iwillingness to pursue referrals of
 Mclaughlin's complaints. With regard to the referral from l(bX7)(CI ~ stated. "This was not going to
 be under me. At this in m rau had been eviscerated. Eviscerated. And (lb){7){C)                  iwas saying:
~y~){7)(C)                                  I was not opening a case. Who was going to dO it? Me?"
~eslimony Tr. at pg. 41.


                                                      12
    This document is subjecllo the provisions of the Privacy Act of 1974, aDd lRlly require redaction berore
    disclosun 10 third parties. No ndaction has been perfol'lJled bribe OtTtce or IDSpedOr Genenl.
    Recipients or tbis report shoukl not disseminate or ~opy it without the Inspector ~DeNlI's approval


    investigations on a confidential basis ... [wJe cannot provide you with updates on the
    status of your complaint[s] or of any pending SEC investigation." Exhibit 26.
               On February 28, 2005, (bK7)(C) forwarded McLau lin Complaint No.2 to[(bK7)(C)!
    the Enforcement Accounting Group's (b)(7)(C)                       and copied 1(b)(7)(C) I
    l(b)(7}(C) I and Markel. ld. !(b)(7)(C) I requested that ~ "add this to the referral file for this
    complaint." [d. Although the Enforcement Accounting Group's process was for [(b)(7)(C) I
    to send the OlEA referrals to l(b)(7)(C I who would log them into the Enforcement
    Accounting Group's Financial and Accounting Referrals Tracking System, neither
    Mclaughlin Complaint No.1 nor Mclaughlin Complaint No.2 was logged into the
    system. [1b'7)(0) ITestimony Tr. at pgs. 97-99; ~ Testimony Tr. at pgs. 13,21; Exhibit
    27. K1XC} stated that they were not entered probably due to "an oversight." K1XCl
    Testimony Tr. at pg. 13. Thus, Mclaughlin Complaint No.2 was not reviewed or
    analyzed either.

    II. McLaughlin's 'IJaird, Fourth, and Firth·Complaints lo the SEC in the Summer
        and Fall of 2005 Were Not Reviewed or Analyzed

           Despite that Mclaughlin Complaint Nos. 1 and 2 were not reviewed,
    Mclaughlin's concerns should have been evaluated in the summer of 2005 when he
    submitted additional complaints to the SEC. Unfortunately, the complaints Mclaughlin
    submitted in the summer of 2005 met a fate similar to those that the SEC had received in
    February 2005.

            orEA records indicated that Mclaughlin sent a letter to the SEC in June 2005
;
    ("Mclaughlin Complaint No.3"), which was referred to an Enforcement Branch Chief.
j
    The Branch Chief did not recall receiving it and it appeared that Mclaughlin Complaint
    No.3 was never reviewed. The Enforcement Accounting Group acknowledged receipt of
    McLaughliri's August 2005 complaint ("McLaughlin Complaint No.4") and September
    2005 complaint ("McLaughlin Complaint No.5"), but the accountant who was assigned
    to review the complaints never reviewed or analyzed them.

             A. SEC's Handling or McLaughlin Complaint No.3
                                                                                                               .   ­

                According to OlEA records,l<b)(7)(C) I received Mclaughlin Complaint No.3 on
    June 14.2005 and forwarded a hard-copy of tbe complaint to l(b)(7)(C)! then Branch Chief
    in Enforcement. on June 17, 2005. 13 Exhibit 28. l(b)(7)(C Istated that he did not recall
     receiving or handling a June 2OO5-com laint. In (b)(7)(C)            ~ had left
    Enforcement to work (b)(7)(C)                                                  and ex ressed
    doubt that he received Mclaughlin Complaint No.3. Testimony Transcript of (b)(7)(C)
    l(b){7)(C I(b)(7)(C) ITestimony Tr:") November to, 2009, at Exhibit 7, at pgs. 8·9; Exhibit


    13 The 010 requested the production of Mclaughlin Complaint No.3 from the OrEA The OlEA
    performed a search of its on-site records and detennined thai. due 10 its age, Mclaughlin Complaint No.3
    had been moved to off-site archives. The OlEA has requested its retrieval. but Slated that it expected a
    lengthy wail. As of this date, the complaint has not been produced.


                                                        13
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No red.dion has been perfol'lDed by tM Ofrrce of lIlSpecto(" GtDeral
Recipients ortbis report should dot disHminate or copy it witbout the hU1p«:tor ~lural's appronl.



29; Exhibit 30; Exhibit 31. ~ stated that if he had received a complaint related to
Metromedia after leaving Enforcement. he would have forwarded it to his former
Enforcement Group. Exhibit 31.

        The OIG found that neither IillillI£l nor any other Enforcement attorney reviewed
or analyzed Mclaughlin Complaint No.3.

         B. SEC's Handling of McLaughlin Complaint No.4

        On August 16,2005, Mclaughlin submitted another substantive complaint
("Mclaughlin Complaint No.4") to OlEA that raised two central issues. Exhibit 32.
The first issue Mclaughlin raised was that Metromedia filed an 8-K with the SEC on
June 7, 2005, stating that the company was restating its 10-0s and 10-Ks going back to
2002, and that its prior filings could not be relied upon. ld. The second issue raised was
that on June 14, 2005, Metromedia filed an 8-K with the SEC stating that the company
had reached an agreement to sell PeterStar, one of Metromedia's major assets, and that
the Metromedia shareholders had not approved the sale. [d.

        On August 26, 2005.llb)(7)(C) Isent a letter to Mclaughlin stating that
Mclaughlin Complaint No.4 had been referred "to the appropriate SEC office or
division" and that if the "person receiving [the] referral ... has any questions about the
information provided, he will contact you." Exhibit 33. l(b)(!)(c) Ithen forwarded
Mclaughlin Complaint No.4 to l(b)(!)(C)I in the Enforcement Accounting Group. Exhibit
32.

           l<b)(!)(C) Ithen gave the referral to X7XCI for entry into the Enforcement Accounting
Group's "referral triage process," writing on the first page of the referral, <~please
check referral database. I think this has come in before - if no~, 3x [copies] for referral
process." [d.; l(b)(7)(C) ITestimony Tr. at pgs. 27·28, 30. l(b)(7)(C) Istated that he believed
~DX7XC) Iwould assign the referral to an Associate Chief Accountant who would then assign
it to a staff accountant. l(b)(7)(C)]Testimony Tr. at pg. 32. ~logged Mclaughlin
Complaint NO.4 into the Enforcement Accounting Group's Financial and Accounting
Referrals Tracking System and assigned the referral to Associate Chief Accountant
1(b)(7)(C) I Exhibit 34; ~Testimony Tr. at pg. 14.

          ~ stated that (b)( C then assigned the referral tol(b)(7)(C)                         Iwho
was an Assistant Chief Accountant under (b C supervision. Jd. 1(b)(!)(C) I however,
had a slightly different recollection. !lb)(7)(C) Irecalled that [(b)(!)(C) Iassigned the referral
            r
directly to X7XC )) after asking her permission. Testimony Transcript ofl(b)(7)(C) I b 7 C
l<b)(7)(C) ITestimony Tr.") November 17-18, 2009, at Exhibit 9, at pg. 17. ~ did not
have a clear recollection of who assigned the referral to him, but stated "it's more than
likely it was l(b)(7)(C) Illb)(7)(C) I Testimony Transcript o!fbn7)(C)                  tI'estimony
Tr.") November 4. 2009, at Exhibit 5, at pg. 12. Whether it was l(b){7)(C)I or l(b)(7)(C) Iwho
provided the referral to ~ it is undisputed that J(DX7XCI1 was assigned to review
Mclaughlin Complaint No.4 under l(b)(7)(C) J supervision and that l<b)(7)(C)I was aware of


                                                   14

This documenl is subject to the provisions of the Privacy Act of 1974, aad may require redaction before
disclosure to third parties. No redaction has been performed by the orr.ceof InspedorGeoeral.
Recipients of Ihis report should nOl disseminate or (Opy it without the lospec:tor General's approval



the assigrunent. b C Testimony Tr. at pgs. 17·18, 180. The OIG investigation found
that Mclaughlin Complaint No.4 sat idle with      for over two years.

         C.	 SEC's Handling of McLaughlin Complaint No.5

         On September 28, 2005, Mclaughlin sent yet another complaint to (b)(7 C)
regarding Metromedia ("McLaughlin Complaint No.5"). Mclaughlin Complaint No.5
consisted of a letter to !(b)(!)(C) Ioutlining his concerns about Metromedia and his "latest
demand lener" to Metromedia, dated September 22, 2005. Exhibil35. McLaughlin
copied law enforcement officials, former Metromedia executives, and others on the
complaint. Id. McLaughlin's central assertions in the complaint were that (1)
Metromedia continued to inaccurately report financial information and had not provided
an "adequate explanation of the total collapse of the Company's financial reporting
system"'; (2) the Metromedia Board of Directors breached their duty of good faith to
Metromedia by selling assets at below·market prices before having sufficient information
about the sales; and (3) the Board improperly approved the sale of the PeterStar assets
(which the letter stated were "all or substantially aU" of Metromedia's remaining assets)
to a related party without shareholder approval. [d.

           As with Mclaughlin's prior complaint,llb)(7)(C) IresJxmded to Mclaughlin that
McLaughlin Complaint No.5 had been referred "to the appropriate SEC office or
division," and then forwarded McLaughlin Complaint No.5 to !(b)(l)(C) Ion September 29,
2005. Id. 1(b)(7)(C)I appeared to have provided the referral to !lb)(7)(C Iwho then provided it
to l(b)(1}(C) I Ill.; l(b)(1}(CI ITestimony Tr. at pgs. 17-19.

        l(b)(7)(C) Irecalled reviewing McLaughlin Complaint No.5 and stated that she
"could see that it looked like it was a case, to me. That was my reaction.... [I)t did
occur to me that there's a lot in this letter, yes." b C Testimony Tr. at pgs. 17-18.
Like Mclaughlin Complaint No.4, Mclaughlin Complaint No.5 was provided to I(DX7Xc>1
for review. [d. at pg. 19. l(b)(7)(cllrecalled "thinking [McLaughlin Complaint No.5]
involve[d] more analysis than I had the time to give it, and ~ was a new employee
- relatively new employee - and I thought he had more time than I did and could
devote the tmie to look at it." [d. ~a1so had extensive accounting experience.ll"",ern,K"Ci'--­
Testimony Tr. at pgs. 6·7, 25. Pri<:,r to joining the SEC in~2005, X1JlC a Certified
Public Accountant (CPA), had amassed over~years of accounting experience,
including D          ears of employment at a major public accounting firm. III

         D.	 McLaughlin Complaint Nos. 4 and 5 Sat for Two Years in the
             Enforcement Accounting Group Without Re\o'iew

        Notwithstanding the assigrunent of Mclaughlin Complaint Nos. 4 and 5 to ~
the OIG investigation found that lDK1)(C) 'never reviewed and analyzed either of
Mclaughlin's complaints. III a~. ~ recalled being assigned the Metromedia
matter for review and that his impression was that "it looked real complicated, like it
would require some work." Id. at pg. 20. We found that this work was not performed.


                                                   15

This document is subject to the provisions of the Privacy Acl of 1974, and may require redaction before
disclosure to third parties. No redaction bas been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without Ihe Inspector General's approval.


ld. at pg. 20. (b)(7){C) also recalled that he "needed more infonnation" because a page in
Mclaughlin omp aint No.4 was missing from the referral. ld. at pgs. 14, 20. The OIG
found thal(b)(7}(C) equested Ihe missing page from l(b){7)(C} Iin late November 2095 and
that, by ea~ryoecember 2005, he had all of the materials necessary to review and analyze
Mclaughlin complaints. See Exhibit 361(b)(7)(C} Iforwarding McLaughlin's February
2005 correspondence to I<DK1)(C} IExhibit 371{b){7){C} Iapologizing for being "unexpectedly
away from "the office" and stating that he was sending "copies of the Metromedia
materials" to(b)(7){C) at day); l<b)(7){C) ITestimony Tr. at pg. 57; I<DK7KCll Testimony Tr. at pgs.
18-20; (b)(7)(C) Testimony Tr. at pgs. 28-29.

        Ao.oroximatelya year after being assigned the referral, l(b)(7)(C)I received an u date
fro~~)(C) ~bout referrals· that he had outstanding. On September 20, 2006, (b)(7){C)
reporte tll3.t he had three uncompleted referrals, one of which consisted of McLaughlin
Complaint Nos. 4 and 5. Exhibit 38. Six days later, l(b)(7)(C) Iresponded, <'These seem
pretty old. Is there anything 1 can do[?]" ld. On September 27, 2006~J.esponded·
that he would complete his review of the Metromedia matter as soon as poSSible, stating:

                 No, I don't think there is anything you can do. I just
                 haven't been focusing on them for a while. I will make a
                 renewed effort to complete them as soon as possible.

/d.

        However, over a      yearafter l(b)(7)(C) Ie~mail and two years after receiving the
Metrornedia referrals~){C} ~till had not completed his review of the Metromedia
referralsE7TICflrestimony Tr. at pgs. 28-29. l{b)(7)( Iexplained that he did not complete his
review oflhereferrals because he had "a full case load" and "worked on [the referrals]
when he had time.... 1 worked on it if l(b}(7}(C) II{b)(7){C} Iwas pressuring me 10 get them
done." Id. at pg. 25 (b)(7}(C: etated there was nothing about the Metromedia referrals that
made their consideratIon a e longer than other refenals_,explaining that "I just didn't
foqus on it, there was no issue." ld. at pgs. 25~26j(b){7)(C) lestified that he "completed
some referrals during'the time Metromedia was outstanding, but 1 probably worked on
the ones that I could knock out quicker." Id. at pg. 26E(7)(Cf)tated that "the whole time I
was still getting assigned more referrals. I would try and work on the ones that 1 could
knock out, and Metromedia was al~ys one at the bottom of the pile.1(b){7){C) ~estimony
Tr. at pg. 45.

       The DIG investigation found that l(b}(7)(C) 1su~rvisors, including l(b)(7)(C) Iand                 •• C.

Markel, were periodically sent updates showing tha~(DK7KCl ~ad not completed his review
of the Metromedia complaints. See, e.g., Exhibit 39; Exhibit 40; Exhibit 41 (estimating
tha(~7~~~ent referral reports to Markel and the other supervisors six to eight times a
yea~el Testimony Tr. at pg. 34.

       Markel recalled in the following testimony that when she and Ifb){7)(C) Ilearned that
the Metromedia referral (containing Complaints Nos. 4 and 5) had not been completed


                                                   16

 This documtnt is subject to the provisions or the Privacy Act or 1974, aDd may require redaction berore

 disdosure to third parties. No redaction has beea perfonted by the omct ollaspector Genen!.

 Recipients or tbis report sboukl Dot dissemiute or copy it withoat tbe IDspedor Genenl's approv.lL



 (wo years afler having been assigned for review in the Enforcement Accounting Group,

 Ihey found the explanation for the delay "disappointing" and "frustrating":


                  [Alt some point, I think I have learned tha ,(b)(7)(C) (b)(7)(C)

                  had the referral and he had indicated there was a page

                  missing or something and so that was what he was waiting

                  for or something or that's why it was still there, because he

                  had requested that the additional page be provided, and I

                  don't think he was provided that and that's where it stayed.

                  ___ [It was] disappointing, cenainly, that you know, that

                  that's the ex.planation that was provided for that.... the

                  idea that, you know, something came in and a piece of

                  paper was - you're waiting for that. Ifthat"was the only

                  thing holding you up, then I guess you .would either close it

                  and say I don't have sufficient information or try again to

                  get it. So it wasn't a very satisfying response.... I think

                  he l<b)(7)(C) I was frustrated. . .. [I]n the discussions of, you

                  know, the referral and, you know, why it didn't get

                  processed or the explanation that, well, one piece of paper

                  was missing. that was not satisfying to me or to him. So

                  we may have talked about that.


 Markel Testimony Tr. at pgs. 41-42, 65.

             The Metromedia referrals may have continued to sit in the Enforcement                          ,­
  Accounting Group without action, but as discussed below in Section V.c., in the last day~

  of November 2007, 1(bl!7)(C) Iwas assigned to assist Enforcement attorneys with an

  investigation of Melromedia and she took over review of the Metromedia referrals from

!(b)(7)(C) II(b)(7)(C) ITestimony Tr. at pgs. 27-28.



         E.	 Enforcement Accounting Group Review Was Intended to Swiftly

             Determine Whether an Investigation Was Warranted


         The Enforcement Accounting Group's failure to complete a review of

 McLaughlin's complaints in over two years is additionally troublIng because the group's

 referral process was intended as only a swift initial review to determine whether the

 complaint was worthy of further investigation by an Enforcement attorney group. As

 stated by an April 17, 2003 Memorandum regarding "Procedures for Review of Financial

 Reporting and Accounting Related Enforcement Referrals from the Division of

 Corporation Finance and Other Sources" ("Financial Fraud Memorandum") that outlined

 procedures for review of financial reporting and accounting related enforcement referrals,

 U[t]he initial goal of the review of each referral will be to detennine whether there is a

 sufficient basis to warrant further investigation and, if warranted, 10 refer the matter to the

 appropriate Enforcement persolUlel for that purpose." Exhibit 21.





                                                    17
This document is subject to th~ provisions of the Privacy Act of 1974,nd may requi~ redaction be:ro~
disdosuft to third parties. No redaction has been perfonned by the Office of Insp«tor Geoen.l.
Recipients of chis report should not disseminate or copy it without the Inspedor Gnenl's approvil.



        l(b)(7)(C)1 stated that the purpose of the Enforcement Accounting Group's review of
referrals was to "assess the credibility of the complaint, the plausibility:' l(b)(7)(C)I
Testimony Tr. at pgs. 21-22. If the reviewing accountant and his or her supervisor found
the complaint to be not credible, then they would <crecomrnend no further action." [d. at
pg. 21. If the complaint was found to be credible or contain "'compelling evidence, (they]
would recommend further action, and if a senior officer agree(d], it would be assigned to
an attorney group." Id. at pg. 22 (bX7){C) ,stated that the acoounlant reviewing the referral
was supposed to fill out a "short report orm," stating background information about the
referral and listing "some basic financial information ... a background of the issue, and
then (their] recommendation.i(b)(7)(C) ~estimony Tr. at pg. 14.

         Despite that the Enforcement Accounting Group's review was designed 10 be a
swift preliminary assessmenl, prior 10 2009, the Enforcemenl Accounting Group did not
have a timeline within which referrals were to be oompleted.             c Testimony Tr. at pg.
20-21. Mackel testified that she "wanted [referrals] done as quickly as possible:' but
during her testimony would not slate a time period during which she expected them to be
reviewed. Markel Testimony Tr. at pg. 20-21. According to !(b)(7)(C) I the current
guideline is Ihat referrals should be completed within six weeks. Id. l(b)(7)(C) Iestimated
thaI he expected an accountant to review a referral within 30-45 days and, in l(b)(7)(C) )
experience, it was atypical for an accountant to take two years to complete a review of a
referral. 1(b)(7)(C) ITestimony Tr. at pg. 41j(b)(7)(C) ~estimony Tr. at pgs. 16·17.

        F.	 Failure of Enforcement Accounting Group to Follow Written Procedures
            May Have Contributed to McLaughlin's Complaints Not Being Acted
            Upon

        It appeared that the Enforcement Accounting Group's referral procedures for
monitoring the progress of referrals were not followed in the 2005-2007 time period.
Markel Testimony Te. at pgs. 16, 19. This failure to follow procedures may have been a
factor in allowing McLaughlin's complaints to sit in the Enforcement Accounting Group
without action for over two years.

          The procedures outlined in the April 17, 2003 Financial Fraud Memorandum
stated, "Each referral will be reviewed by staff, senior supervisory staff ... and by the
front office (the Associate Director and/or the Chief Accountant]." Exhibit 21, at pg. 1.
The senior supervisory staff"will meet on a bi-weekly basis with [the front office], or
more often if needed, to regularly decide the disposition of the referrals." [d. The
Financial Fraud Memorandum also provided specific procedures for handling referrals.
[d.	 at pg. 3. The procedures for the disposition of referrals were as follows:

                The review and ultimate disposition of each referral will
                take place in three steps. First, the acrountants/lawyers
                will conduct the review and form their own proposed
                recommendation. Second, [the senior supervisory staff]
                will meet with each accounlantllawyer team approximately


                                                 18
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
RecipienlS of this report should not disseminate or copy it without the Inspector General's approval.



                 every week to discuss their review and reach a consensus

                 for a proposed disposition. Finally, [the senior supervisory

                 staff] will meet with ... [the1Chief Accountant every two

                 weeks, or more often as required, to present the referral and

                 to collectively make a final decision for the disposition of

                 the referral.

                                                                                                          ,-,',­


[d.

        Markel testified that in 2005, the referral meetings were not occurring as
frequently as described in the 2003 Financial Fraud Memorandum: "I'm not sure that we
met on a regular biweekly basis. We would try to meet as - as frequently as we could,
given, you know, the number of referrals that might have been queued up. . .. At some
point ... we would have these meetings later on in the process. I'm not sure who always
attended." Markel Testimony Tr. at pgs. 16, 19. l(b}(7)(C) Irecalled that the meetings to
discuss the final disposition of referrals "were discontinued at some point, primarily
because of scheduling difficulties." Exhibit 42, at pg. 2.

III.	 McLaughlin's Sixth Through Seventeenth Complaints to the SEC in 2006 and
      2007 Were Not Reviewed or Analyzed

       Despite the lack of action on his prior complaints, Mclaughlin continued to
submit complaints to OlEA in 2006. By late September 2007, no Enforcement group was
reviewing, analyzing, or investigating any of the approximately seventeen complaints that
McLaughlin had submitted between February 2005 and September 29, 2007. Exhibit 43.
Problems contributing to the inaction on McLaughlin's complaints included the failure to
formally close an earlier unrelated Enforcement investigation of Metromedia or to update
the NRSI system. However, the primary reason that the complaints were ignored
appeared to be human error - the Assistant Director and staff who received the
complaints did not review the complaints or make certain that someone was taking
responsibility for handling the complaints.

        On March 10,2006, McLaughlin faxed l(b)(7}(C) I a letter dated March 6, 2006
("Mclaughlin Compl.aint No.6"), asserting that (1) Metromedia continued to have
accounting issues; (2) McLaughlin and his attorneys were considering filing a derivative
action; (3) they were looking at a potential FCPA violation by Metromedia; and (4) they
believed that more than $141 million in assets were missing at Metromedia. Exhibit 44.
After receiving Mclaughlin Complaint No.6, l(b)(7)(C) I searched the NRSI system, which
showed that there was an ongoing investigation of Metromedia that had been opened on
November 26, 2002. [d. at pgs. 3-5.

         Staff on the Metromedia investigation consisted of (bK7XCl (b)(7){C)    Assistant
Director;l(b)(7)(C) l(b)(7}(C) I then Branch Chief; and (b)(7}(C)   then Staff Attorney.




                                                    19

This document is subject 10 the provisions of the Privacy Ad of 1974, .nd may require redaction before
disclosure to third parties. No redaction has ~ performed by the Office of Inspector General.
Recipients of tbis report sbould not disseminale or ropy it witbout Ibe t.sp«tor Genenl's .Ipproval.


Testimony Transcript 0 ,(b)(7)(C) (DK C) l(b)(7)(C} ITestimony Tr.") November 25, 2009, at
Exhibit 11, at pg. 14. Because IlDK7KC) Iwas listed in the NRSI system as the staff person
on the Metromedia investigation, l(b)(7)(C) Isent the referral of Mclaughlin Complaint
No.6 to 1{b}(7) land l(b)(n ~(b)(7)(C) ~ IS rd. at pg. 1. By the time the SEC received
Mclaughlin Complaint No.6, b C and (b}(n had left l(b)(7}(C)                 Igroup. Exhibit 30;
Exhibit 46. b C (b}(7}(C)                   and          was working in Enforcement's Office of           ....
                                                                                                          ;;:;
                                                                                                          ,
Chief Counsel. rd. Despite tha\(b)(1)(C) , 0 longer worked in Ilb}(7)(C)        Igroup. (b)( C            •
sent three additional Mclaughlin complaints to her in 2006 because of her listing in the
NRSI system. Exhibit 43.

        A.	 Failure to Follow Proper Procedures to Close the 2002 Metromedia
            Investigation Contributed to McLaughlin's Complaints Sitting in
            Enforcement Without Action

                 1.	 Background of the 2002 Investigation of Potential FCPA
                     Violations at Metromedia

        Unknown to 1(b)(1)(c) Ithe Enforcement staff had intended to close an unrelated
2002 Metromedia investigation in early 2004. This informal Enforcement investigation
of Metromedia beginning in 2002 involved self~reported violations of the FCPA and had
no connection to McLaugWin's complaints. Exhibit 47, at pg. 1. According to a 2003
memorandum written by[(b)(7)(C) ~ummarizing the investigation, Metromedia-related
companies had paid bribes and kickbacks in two former Soviet Republics - Georgia and
Kazakhstan. Jd. In Georgia, a company in which Metromedia had·a minority ownership
made $9,000 in payments "to reduce tax liability and lower tower transmission costs."
rd. There was no evidence of further bribes paid after Metromedia became the majority
owner of the company. Jd. In Kazakhstan, over $118,000 in kickback payments were
made in 1998, prior to Metromedia purchasing the company. Jd. at pg. 2. In addition,
two one-time bribes were made to government officials (one in 1999 and one in the mid­
1990s) to prevent the government from seizing license rights and to get a lawsuit
dismissed. [d. at pg. 3. 16 The memorandum highlighted "that all improper payments
ceased and all employees who paid or approved the payments have been terminated or
disciplined." IlL at pg. 1.

          As part of their investigation, !(bK7)(C t and'(b)(7)(C) 1 et with attorneys for               .'
Metromedia and discussed potential charges against Mellomedia wit r(b)(7}(C)               of the
De arlment of Justice. Illiill@TestimonyTr. at pg. 17~(b)(1)(C) [restimony Tr. at pgs. 17­
18.(b)(7)(C) learned from~lhat a case against Metromedia for violations of the FCPA




                                                  20

This document is subjtct 10 tbe provisions of the Privacy Act of 1974, aDd may requin redactioo heron
disdosurt to third plr1ies. No mI..etlon has been perfonned by the Office of lospector Galenl.
Recipients or this report sbollid not disHminat~ or copy it withollt th~ laspector Gen~ral's approval.


faced slatute-of-limilations issues. 17 According to e_mails!(b)(7)(C) ~rote summarizing her
conversations wit~b)(7)(C) priminal charges could only be bro,ggbt for payments made
within the last five years. Exhibit 49; Exhibit 50. Thereforej(b)(~lieved that the
only payment that could be charged was a $10,000 payment made to a member of the
Russian Duma. Exhibit 49.

              !lb)(7)(C) Iand b C brainstormed 11b)(5)
 but by February 2004, they determined thatC":a:-cas=e=-=a=ga"ins=t-'M"-'etro=m=ed"';-=a-=sLho=uCiICid-=nc;o"tLhe:-­
 pursued and that the informal investigation of Metromedia should be c1osed·l(b)(7)(Cl                           I
Testimony Tr. at pgs. 23~24; b C Testimony Tr. at pgs. 20~23. On February 12, 2004,
[C b)C 7)(C) Ie~mailed ICb)(?J!C) I and [(b)(7)(C Ia memorandum entitled, "Closing MUI [Matter
 Under Investigation] of Metromedia, MHO-09607," stating why the FCPA investigation
should be closed without action. Exhibit 48. The attached memorandum stated that
although the statute of limitations may not be a total bar to bringing civil charges against
 Metromedia (as it would be with respect to criminal charges), there wbuld be substantial
hurdles to overcome in bringing a successful action. Id. In the memorandum,I(b)(7)(C)                                I
summarized as follows the reasons why the leam recommended that the unrelated 2002
investigation of Metromedia for potential FCPA violalions be closed:

                         Because of the age of the matter and l(b}(5)             I

                        [lb)(5)               Ia lack of evidence of the violations,

                         the extreme cost of Obtaining better evidence, the small

                         amount of money involved, and the light trading in

                         Metromedia's stock ... Ihe staff recommends that the

                         investigation be closed. . .. On balance, the extraordinary

                        effort and expense to obtain admissible evidence do not

                        appear justified in this matter.


[d. at pgs. 2-3.

                        2. Steps Necessary to Close 8n Enforcement Investigation

        During the relevant time period, Joan McKown ("McKown"), the Chief Counsel
of the Division of Enforcement, supervised the closing of matters under investigation.
Testimony Transcript of Joan McKown ("McKown Testimony Tr."') December 24, 2009,
at Exhibit 13, at pg. 6. According to McKown, matters that are closed "without an
enforcement action follow fairly routine process." Id. at pg. 7. McKown described the
process as follows:
                                                                                                                         ....
                                                                                                                         '


                        The staff, generally the staff attorney working on the case

                        fills out the form, answers certain questions and wriles a

                        narrative as 10 what happened.... It's reviewed by a


                    OI(7)(CJ
               nd              stated thai they believed the Departmenl of Justice did not pursue an FCPA case
.g·~.;C:"=st·MCie~~tromedia.(b)(7}(C)   estimony Tr.   at pg. 67;(b)(7)(Cf eslimony Tr. al pg. 18.


                                                               21

This document is subject to the provisions of tbe Privacy Act of .'74, aDd may require redaction before
disdosun to third parties. No red.diOD has been performed by tbe On-act of Inspector GeDen!.
RKipients of this report sbould Dot disseminate or copy it wilbout the I.spector Genenl's approval.



                  branch chief and an assistant director and that's the
                  recommendation. That recommendation then goes to the
                  case management specialist, who then makes sure that it
                  complies with certain procedural things ... [a]nd they
                  make sure that certain technical requirements are complied
                  with ... [sluch as seeing whether there was a FOlA
                  [Freedom of Infonnation Act] request. making sure that
                  access grants were properly reoorded. They're basically
                  making sure that what should be in the systems [e.g., Case
                  Activity Tracking System (CATS)18] is appropriately in the
                  systems. It's then sent to 1{b)(7)(ClllibK~.... She then
                  goes through and actually does a double check to make sure
                  that everything that was supposed to be entered into the
                  system is correct and she goes through the narrative as well
                  ... and then she'll send it to me, and I review it. And then
                  after I'm done, if it's okay, I write "okay" JM," u in the
                  corner. I send it back to l<b)(7)(C) I and also [to] (b)(7)(C)
                (b)(7)(C)  ho's a case man.agement specialist who works with
                'll!jl1l~cD . .. ICb)(7KCl then infonns the case management
                                          I
                  specialist, who then goes to the senior officer responsible
                  for the investigation, who then actually signs the closing
                  itself, which is a piece of paper that goes on lOp of the
                  recommendation.

McKown Testimony Tr. at pgs. 7-10.

        Associate Director Chris Conte ("Conte") estimated that after the closing
memorandum was written, the rest of the steps that the Enforcement team needed to take
before submitting the matter to' the Office of the Chief Counsel for closing should take "a
couple of days at the most, a day or two, not even two, to finish that piece of it."
Testimony Transcript of Christopher Conte ("Conte Testimony Tr.") December 15, 2009,
at Exhibit 14, at P!l". 18-19.

         Conte was not aware of any Enforcement procedures stating that a certain person
on the Enforcement team is responsible for closing an investigation. Jd. at pgs.16·17.
Rather, he felt that the entire Enforcement team - including the staff attorney, the branch
chief, the assistant director, and the associate director - are responsible for making sure
an investigation is closed. Specifically, he testified, "I would say that all of us have
responsibility to make sure that cases are ultimately closed and processed ... as

18 CATS is an Enforcement Division information technology system "that tracked the progress of its
MUls, investigations, and Enforcement actions," Exhibit 51, at pg. 12. During the relevant time period,
the CATS system fed information into the NRSI system. Nthough the CATS system is still in use,
Enforcement is transitioning to the Hub system, which has enhanced functionality. ~)(C)       Iinterview
NOles1bf(7)(Q--' nterview Notes"), February 2, 2010 at Exhibill9. The Hub system allows Enforcement
staff to update information (such as staff changes) in the system directly. Id.


                                                   22
Thi!l document is subject to the provisions or tM Priyacy Act or .974, aDd may requi~ redaction bdo~
disdosu('t to third parties. No redaction bas been perfonned by the Orr-ICe or Inspector General.
Recipienu or this ~port sbould not disseminate or copy it without Che 11ISpector General's approYaI.



required." Id. at pg. 16. McKown asserted that "the assistant director ultimately was
supposed to make certain that the closing process kept moving forward ... [a]llhough the
staff anorney did most of the actual work." McKown Testimony Tr. at pg. 13. McKown
had "no idea" if there was training for new attorneys on how to properly close a case. Id.
at pg. 13. McKown stated that an assistanl director could check the status of an
investigation in NRSI or could ask an Enforcement case management specialist to find
out the status of an investigation. Id. at pgs. 16-18.

                  3. Closing Documentation Could Take 1-2 Years to Process

        McKown was unable to state approximately how much time the closing process
would take after a mailer was submitted to the Office of Chief Counsel for closing. Id. at
pgs.l1·12. McKown explained that the Office "sometimes ha[d] a huge backlog [of
matters to close] and it can take a considerable period of time." ld. McKown stated that
it could have taken her office as long as a year to close a matter under investigation, but
not over two years. ld. at pgs. 12-13. McKown testified that sometimes staff would
believe a matter was in the closing process, when it was not, and that more transparency
should be added to the closing process:

                 So I couldn't tell you how long the backlog was, but I can
                 tell you that the backlog would periodically get cleared up.
                 I would still hear from people afterwards, "Oh, thaC-s been
                 in the closing process for a couple of years." And the
                 answer was, "No, it hasn't been. We don't have the
                 closing." Sometimes what would happen, and one of the
                 things that we need to work on in the closing process is
                 more transparency to the system so that people understand
                 where it is. What would sometimes happen is we would
                 send a closing back to a staff attorney or a branch chief.
                 They would not tell their supervisors. The supervisors
                 would think thai it was still sitting with the home office
                 case-closing part of the process. They would think it was
                 there, but in fact we had returned it.

1<1. at pgs. 11_12. 19

                 4. Official Closing Documentation Was Not Prepared
                                                                                                       " ,
       Although l(b)(7)(C) II(b)(7)(C) I and (b)(7)(C) ad decided to close the 2002
Metromedia investigation, there is no evidence indicating that anyone on the team look
the necessary steps to officially close it. bX7 (C was an Enforcement Branch Chief from


19 McKown IWified that Enforcement has undergone "a dramatic change in terms ohhe processing" of
case closings and thai currently Enforcement is only "about a month behind.n McKown Testimony Tr. at
pg.l3.


                                                 23

This document is subject to tbe provisions or the Privacy Act or 1974, and mIIy require redaction berore
disclosure to tbird parnes. No redaction bas been performed by tbe Of'lice or laspKtor CenenL
Recipients orthis report should not disseminate or ~opy it without the Inspector General's approval


approximately!(b)(7)(C)       Ito approximalelyl(b)(7)(C)   Iwhen he left to work in lb)(7)(C)
~ Teslimony Tr. al pgs. 7-9. b 7 C stated that as a Branch Chief his responsibililies
included preparing documentation to close matlers. Jd. al pg. 12. ~staled that he
was aware of the steps necessary to officially close an investigation. ld. at pg. 13. b C
had no specific recollection of taking any steps to close the Metromedia investigation, but
he believed that all of the necessary documentation had been completed, and as of
December 1,2004, there was "[nlothing that wasn't ministerial" left to do to close the
Metromedia case. ld. at pgs. 24, 49-51.

           b   7 c staled that he was not alarmed when he learned over a year laler that the
Metromedia matter was still open because he thought it must still be sitting in the "long
queue" with 1"'7)(01        Igroup in the Olliee of Chief Counsel. Id. at pg. 39. According
to l(b)(7}(C) Ithere was a general problem throughout all of Ihe Enforcemenl with closing
cases because of the inadequate procedures in place. 20 ld. at pgs. 30-31. l{b){7)(CI
explained that, "all the closing memos were funneled through one individual in
Enforcement and there could be a backlog of a year or more. That was a constant
complaint people heard." Id. at pg. 30.

           In contrast to ((b)(7)(C) I recollection, K7XCI did not recall official documentation
being completed and the OIG found no evidence indicating that the documentation was
prepared. l(b)(7)(C ITestimony Tr. at pgs. 59~60. IlbJ(7)(CI ,recalled that at the time iiish;oe"",,,-,
e"mai.1ed_the_EehruarxiL200~tmemoran..dYm to (b)(7)(C)              and (b)(7)(C) she hadl(b)(7)(C)
(b)(7)(C)

(b)(7)(C)              lId. at pg. 28. 1(b)(7)(C) !slated that writing the February 11,2004

 memorandum "was the only step that I took" to close the investigation. Id. at pg. 30.
[CbK7XCI Ispecificall y recalled that she had not prepared any official documentation to close
the case, nor did l®i!RCC] or ~ask her to do so. Jd. at pg. 59-60. Ilb)(7)jCj Istated that
the onl y step she was asked to take was to draft the closing memorandum:

                  l(b)(7)(C) ](b)(7)(C) I had asked me to write the closing memo,
                    which is this memo that I ... fmalized on February 11, and
                   at that time, [ thought [ was done. [had given it toi(b'7)(C'1
                   . .. Nobody ever told me where to find the list of the steps.
                    Nobody told me anything. And again, [ bad done this
                   [memorandum] after I had already left the group, so ...
                   even drafting this memo, I was just trying to be a nice team
                   player. I mean had they asked me to do it, I probably
                   would've done all those steps because they weren't that



20 On March 13, 2009.(b){7)(C) nt an e·mail to (b)(7)(C)                nforument Counsel, stating thaI "my
old group had' issues' about ctosing cases." Exhibit 5 (b)(7)l'2...J estified that his conunent in the e·mail
was about the general "issue orthe queue" of cases waiting ror closing and "generally speaking, that things
could be on [former Associate Director Paul) Berger's desk for a while. I don't kno'w why that was the
case. I have my own !.houghts on !.hat, that my stuff wasn't really apriority. "lll»){7)(C) ~estimOny Tr. at pgs.
34-35.


                                                       24

This document is subject to the provisions or the Privacy Act or 1974, and may require l'tdaction before
disdosun to third puties. No redaction has been performed by the Off'tce or Inspector General.
Recipients of this report should not disseminate or copy it witbout the IDspector Genen!', approval.



                  onerous since this investigation was very small and
                  focused, but nobody asked me.

ttl. at pg. 60.

        l(b}(7)(C) I who had been an Enforcement staff attorney sincel(b}(7}(C) ~ stated
that as of February 2004, she had not received training on how to officially close
mauers?' Jd. at pgs. 10,31,60. 1(tI)(7)(C) I explained as follows:

                   I did not know there were several steps to take to close a
                   case. I had no idea. I thought that, at that time, I was asked
                   to write the closing memo, so I did, and my understanding
                   was you send the closing memo somewhere, that I was
                   supposed to send it to my assistant director and my branch
                   chief and then the-case would be closed. That was my
                  ·understanding, which was imperfect.

ttl. at pg. 31.

        Similarly, Assistant Director 1(b)(7)(C) Iappeared not to have understood the steps
necessary to officially close an investigation. McKown stated that she believed the
Metromedia investigation was not closed in the system because «there was a
misunderstanding by the person who was the assistant director 1{b}(7)(C)                I
                                                                             as to what it
took to close a case." McKown Testimony Tr. at pgs. 22·23. McKown stated that when
she met with l<b)(7)(C) Iabout Melromedia, he "showed me the closing, and I said, 'This is
not a closing. This was what I would call a memo to file.'" Jd. at pgs. 23·24.

        Conte's recollection of why the Metromedia investigation was not closed was
similar to McKown'S recollection, Conte recalled the following:

                  [W]hen I saw what was identified as the closing [memo], it
                  was apparent to me that if that was alltbere was, that
                  wasn't an official closing memo either.      The
                                                                 0,   ••



                  information that I saw in the memo certainly could have
                  been part of what would go into the closing memo. Here's
                  why we opened it., here's the work. we did. Here's why we
                  decided not to pursue it. So the substantive information, I
                  could have seen being made part of a closing memo, but it




21        stated that the Melromedia investigation was the first invesligation that she had attempted 10
     (b)(7)(CJ
c1ose~(7)(C)  jfestimony Tr. at pg. 31. However, after being shown an additional document in which she
wrote t~)(~tha( she thought she had dosed a matter but it continued to show up in the CATS syslem,
she ackriow£edged that, although she had no recollection of doing so, she must have attempted to close
another case. Iff. at pgs, 34·35; Exhibit 53.


                                                   2S
This document is subjKt to tbe provisions of the Privacy Act of 1974, aDd may require redactioD before
disdosure to (hird parties. No redaction has been performed by 1.be OITw::e of Inspector Genen!.
Recipients of (his report should nOI disHminale or copy il withoullbe Inspector General's approval.


                   didn't have the other aspects that are required to actually
                   submit and have it closed.

Conte Testimony Tr. at pgs. 13-14.

        Conte, l(b)(7}(C») and Ilb)(7MC> Istated that !(b)(7)(C) tshould have been aware that the
Metromedia investigation had not been closed. According to Associate Director Conte,
the assistant director should know whether the closing documentation had been
completed because, as part of the closing package that is submitted to the Office of Chief
Counsel, the,assistant director is supposed to sign a form representing that the technical
requirements for closing were completed. Id. at pg. 20. Moreover.!C bX7)IC I and 1(bJ(71(C) I
believed thatllb)(7)(C) Ishould have been aware that the Metromedia investigation had not
been closed because open investigations showed up on reports provided to assistant and
associate directors. ~Testimony Tr. at pgs. 52-53; [lb}(7Xc> ITestimony Tr. at pg. 61.22

         According to McKown, "NRSI is the interfrace for members of the staff
Commission wide." McKown Testimony Tr. at pgs. 9-10.. "NRSI is an index that sits on
top of a number of Commission systems ... [and] one of the systems it sits on top of is
CATS." Id. at pg. 9. Changes in the CATS system would transfer to tbe NRSI system
because "NRSl is fed by CATS." Id. at pg. 18. McKown stated that some branch chiefs
had'direct access to the CATS system to find out if their matters under investigation were
still open. Id. at pgs. 16·17. Staff attorneys, branch chiefs, and assistant directors who
did not have access to the CATS system could check the status of an investigation on
NRSI or "could go to the case management specialists and they could tell them how it
was reflected ... in the CATS system." Id.

                   5.	 It Was Not Unusual for Inactive Enforcement Investigations to Be
                       Left Open for More Than a Year

       The problem of the Metromedia investigation being left open for years after it had
become inactive was not an isolated one. Acrording to a 2007 GAO Report. the problem
of unclosed Enforcement investigations was recurrent with "potentially negative
consequences":

                   Enforcement may leave open for years many investigations
                   that arc not being actively pursued with potentially negative
                   consequences for individuals and companies no longer
                   under review. According to CATS data, about two-thirds
                   of Enforcement's nearly 3,700 open investigations as of the
                   end of 2006 were started 2 or more years before, one-third


221(b)(7}(C)   I an Enforcement case management specialist, staled ahhough the staff could nOI print
direclly from the CATS system prior to Enforcement's transition to Ihe Hub system, the slaff could always
request that a case management specialist print reports containing case status and other information,llbX7M
                                                                                                          C)   I
Interview Notes.


                                                    26
 This documeDt is subject to tbe provisions of the Pri"acy Act of 1974, ud may mJuil"f: redaction be:fol"f:
 disdosurt to third parties. No redaction bas been performed by the Office of Inspector Genenl.
 Recipients of this nport shoukl not dissemioate or tOpy it witbout tbe IllSpeaor CeDenl's appro"al



                     of investigations at least 5 years before, anq 13 percent at
                     least 10 years before. According to an Enforcement
                     official, technical limitations in CATS make it difficult to
                     readily determine how many of these investigations
                     resulted in enforcement actions and how many did nol.
                     Nevertheless, other data suggest that the number of aged
                     investiga"tions thai did not result in an enforcement action
                     may be substantial. For example, Enforcement officials at
                     one SEC regional office said that as of March 2007, nearly
                     300 of841 (about 35 percent) were more than 2 years old,
                     had not resulted in an enforcement action, and were no
                     longer being actively pursued... , As a result, the subjects
                     of many aged and inactive investigations may continue to
                     suffer adverse consequences until closing actions are
                     completed. . .. [T]he failure to address this issue ­
                     potentially through expedited administrative closing
                     procedures for particularly aged investigations - would
                     limit Enforcement's capacity to manage its operations and
                     ensure the fair treatment of individuals and companies
                     under its review.

 ExhibitS!, at pgs. 2!-23.

         As of October 10,2008, l<bX7}(C)      Igroup had twelve open cases without action
 that were older than five ears. Exhibit 54. Moreover, according to a July 2007 e-mail
 from (bX7}(C)                      1(b){7)(c)   I group also had 27 cases that were listed as
 active, but not assigned to any attorneys. Exhibit ~5.23

           B. SEC's Handling of McLaughlin Complaint No.6
        As discussed above, despite that IlbJ(7J(C) Ihad left l(bX7)(C)   I group in!lb)(7)(C)
1
1 bJ(7J(C);to join
              Enforcement's Office of Chief Counsel, l<b)(7XCJ lofthe OlEA referred
Mclaughlin Complaint No.6 to J(1)(CJ on March 16.2006 because the Metromedia
investigation was an open investigation in the NRSI system and ~ was still listed as
the staff attorney on the investigation. Exhibit 44. at pgs. 3-4; !(bJ(1)(CJ ] Testimony Tr. at
pg. 11; Exhibit 46. l(bx7)(C) I did not have access to the Enforcement Accounting Group's


23 Following the '2iJ07 GAO Report, "there was a big push" in Enforcement to identify and close cases
"that were open in our systems where there had been no action taken in over five years:' Conte Testimony
Tr. at pg. 58. According 10 Associate Director Conte. of the 27 investigations that were listed as active but
not assigned, {a} 15 investigations have been closed (three with action{s) and 12 without action}; (b) 5
investigations involve instances where closing recommendations have been approved and those
recommendations and closing memoranda have been submiued for closing (three with action{s) and two
without action}; (c) two have been roconunended for closing (with action{s»; and (d) five remain open,
after action{s) were brought, due to oUlSIanding debts. collection erforts, and/or planned distributions.
Exhibit 55.


                                                      27

This document is subject to the proriSiODS or the Privacy Act or 1974, ..d may require redaction before
disclosure (0 third parties. No redaction has been performed by (~OfflCe of IospeclOr Cenenl.
Recipients or tbis ...eport sbould not disHminale or copy il witbout tbe Inspector General's approval.



Financial and the Accounting Referrals Tracking System and the system was not
connected to NRSl, so l(b}(7)(C) Iwas unaware that, at the time he referred the complaint
(0 j(b)(7)(C) Ithe Enforcement Accounting Group had an open referral of Mclaughlin's
2005 complaints. l(b)(7)(C) ITestimony Tr. at pg. 32.

                described her reaction when she received McLaughlin Complaint No.6, as
           I(7)(q
(ollows: "I was really startled and 1 couldn't believe that this matter was, nwnber one,
still open. I thought it had closed. And number two that my name was still on it, and
that was sad"'WXq         estimony Tr. at pg. 39.(b)(7)(q then recalled, "very briefly
looking at the letter, seeing it had nothing to do with the case that 1 had looked at, and 1
recall[ed] forwarding this [the March 16,2006 Referral] on to (b}(7)(C)                and
trying to be deferential." Id. at pgs. 39-40. On March 24, 2006 (bX7)(C)      ent (b)(7){C) an
e-mail about the referral, in which she stated she was forwarding him the complaint, he
did not need to do anything in response, and that he should look into why the
investigation was still open:

                    I was given a copy of a leller from OlEA to an investor

                    who had complained about Metromedia I'm going to

                    forward it to you, for your files. No action is required. It's

                    been a long while, but I could have sworn the Metromedia

                    mailer was closed shortly after I left your group. If you

                    think it was closed, you might want to get your admin

                    person to check NRSI. Ah, the joys of the bureaucracy!


Exhibil56.

           l(b)(7}(C)]stated that when she wrote tol(b}{7}{C) '''No action is required," she was
not making a judgment about the merits of the referral~ she was "inartfully summarizing"
l(b)(7)(C)      Istatement on the referral, which was, "You do not have to respond unless you
feel it is appropriate'" (b)(7)(C)     estimony Tr. at pg. 44. However,l(b)(7)(C) Iappeared to
have misinterpreted the last sentence on the cover page of the referral and not focused on
the entire paragraph, which indicated that a response to the investor was not required, not                        "
that review and investigation of the complaint was unnecessary. The last paragraph of
the cover page of the referral stated the following:

                    OlEA has responded to the investor. A copy of our

                    response is attached. You do not have to respond unless

                    you feel it is appropriate. 24


Exhibil44, at pg. J.



24 This quoted language on the referral appeared to be OlEA boilerplate because the exact language, or
variations of it, is included in several of the other Mclaughlin referrals. &e, e.g., Exhibit 32; Exhibit 57, at
pg.2.


                                                      28

This document is subject to the provisions or the Privacy Act or 1974, and O18J require n!dactioo beJore
disclosure to third parties. No redaction has bee. performed by the OfrlCt or Inspector Genenl.
Rtdpieots oftbis report sbould.a. disstminate or ropy it ""itlle.t tbe Inspector Cenenll's approval.



        Rather than interpreting the line to mean no response to Mclaughlin was
necessary because OlEA has already responded to McLaughlin,(b)(7)(C) apparently read
the paragraph to mean that the Enforcement attorneys did not have to respond to b C
about the referral or investigate the complaint because the referral-was unrelated to their
2002 F<?PA investigation.[lb)(1)(CJ ITestimony Tr. at pgs. 41-42.jlb)(T)(C) [explained her
e-mail to (bX C      in the following testimony:

                  At this moment silting here, boy, I wish I could go back in
                  time and rewrite that sentence and I wish I had quoted Mr.
                  l(b)(7)(C) Icompletely to say, 'You don't have to respond
                  unless you feel it is appropriate.' I know what I was
                  thinking at the time was this complaint has nothing to do
                  with our matter, which should be closed, so you don't have
                  to respond to this in relation to the Foreign Corrupt
                  Practices Act investigation. I did not at that time take a
                  look at a complaint - an investor complaint and say, 'I am
                  opining as to whether this is worthy of an investigation or
                  not.' That's not what 1 intended to say. As 1said, I wish I
                  could go back in time.

ld.	 at pg. 45.

        Neithe          or !lbK1)(C) Icommunicated to 1)(C)                 that they had no intention
of reviewing or analyzing Mclaughlin Complaint No.6.

         C.	 SEC Form Letter Gave McLaughlin a Misimpression or What the SEC
             Was Doing With McLaughlin Complaint No.6

        Despite the fact that no one at the SEC was reviewing or investigating
McLaughlin's complaints,l{b)(7)(C) Iresponded to McLaughlin Complaint No.6 on March
16,2006, with a letterstating....We are taking your complaint very seriously and have
referred it to the appropriate people within the SEC." Exhibit 44, at pg. 2. l(bl(7)(C) I
explained that the letter he sent to Mclaughlin was a fonn letter that OlEA sends in
response to complaints that are referred to Enforcement whether or not Enforcement
actually investigates. I(bX7){C) ITestimony Tr. at pgs. 31-32. However, j<bX7)(C) Ilhought
someone in Enforcement had been assigned to the investigation and would have reviewed
and analyzed McLaughlin's complaints [d. l(b)(7)(C) Iexplained as follows:

                  Q.	 When you wrote this [March 16, 2006 Letter to
                      Mclaughlin], did you believe that [the SEC was) taking
                      the complaint seriously?

                  A.	 This is a fonn letter that we send out when we refer
                      infonnation to another office. We use the "taking the
                      complaint very seriously" language. lfwe don't refer


                                                   29

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disdosure to third parties. No recbctioD has bee:o performed by the Office of lnspec::tor Ge.nenl.
Recipients of tbis report should Dot disseminate or copy it withoutlbe Inspector General's appro"al.



                      it, we say - you know, we give them the investigation
                      policy language about how investigations are
                      confidential and we have done everything we can for
                      you. So, I don't really know thal-l really can't speak
                      for the Division of Enforcement as to whether they're
                      taking something seriously or not.

                 Q.	 But to your knowledge since you had now referred ­
                     this would be the [sixth] Mclaughlin complaint that
                     you had referred to Enforcement ... So, you thought
                     somebody had read these complaints and analyzed
                     them?

                 A.	 That's true. If this was the time where they infonned
                     me that it was assigned to someone, that indicated to
                     me that il was going somewhere.

ld.

        Mclaughlin was unaware that the letter he received from the OlEA was merely a
form letter. He interpreted the letter to mean that the SEC was finally paying attention 10
his complaints and investigating Metromedia:

                 I heard from Ilb)(1)(C)  I... in a letter that be dated March
                 16,2006 saying that he took my concerns and the SEC took
                 my concerns very seriously, and that they were being
                 reported to the proper authority, or agency, within the SEC
                 and I took that to mean {the Division of] [E]nforcement,
                 although he did not say that in the letter.... My attorneys
                 and I also took that as a sign for a reason for conspicuous
                 encouragement because we thought that lhe SEC, at that
                 point, was obviously doing its job. If they were on lhe case
                 my attorneys lhought that they should have been on the
                 case by 2004 or 2005 at the latest, so our indication was
                 that yes, someone was paying attention and that this was
                 important to them.

Testimony Transcript of Matthew Kevin Mclaughlin ("Mclaughlin Testimony Tr.")
December 1Z, ZOOS, at Exhibit 1, at pgs. 9·10.

        In actuality, Mclaughlin Complaint NO.6 (along with Mclaughlin Complaint
Nos. 1-5) had not been "referred to the appropriate people within the SEC" and, not only
was it not being considered "very seriously," it was not being consi.d~red at aU. Conte
Testimony Tr. at pg. 11 (explaining that he "came to learn ... that[lb)(1)(C)        land




                                                   30

This document is subject to the provisions orthe Privacy Act or 1974. and IDay require redactioD berore
disclosure to third parties. No redaction bas been perfonned by the Offitt or Inspector Ge.aeral.
Recipient! or tbis report should Dol dissemiaate or copy it witbout llle '"spector General's approval



the attorney that worked under him had not actually undertaken a substantive review of
the complaints and hadn't pursued them in any particular way").

           D. SEC's Handling of McLaughlin Complaint Nos. 7, 8, and 9

          The same situation that occurred with Mclaughlin Complaint No.6 appeared to                     ..
have re-occurred with Mclaughlin Complaint Nos. 7, 8, and 9. According to OIEA                            ."
records. McL;!ughlin Complaint No.7 was faxed to the SEC on April 27, 2006 and was
referred to~Mc) }nd l(b}(7)(cl that same day. Exhibit 58. Mclaughlin Complaint No.8
was also a facsimile sent on October 17, 2006 and was referred to (b)(7)(C) on November 2,
2006. Exhibit 59. OlEA records reflected that in response to McLau lin Complaint No.
8,I<b){7)(C) Icalled Mclaughlin and "[t]old him [OIEA] had referred the infonnation to
the appropriate office at the SEC." Id. Mclaughlin Complaint No.9 was an e-mail from
Mclaughlin that was received on November 21. 2006 and was referred to: lb)(1)(C) Ion
November 27, 2006. Exhibit 60. OlEA records reflected that l<b}(1)(C) Iresponded to
Mclaughlin Complaint No.9 with a letter to Mclaughlin. ld.

           Althoughllb){7)(C) Idid not recall the specific complaints. she recalled receiving
documents from [lb)(!}(C) Ithat she forwarded to !lb)(7)(C) Icommunicating to him that she
was displeased thaI he had not closed the 2002 Metromedia investigation or had her
removed from NRSI as the staff person working on the investigation. (b)(7XCl            estimony
Tr. at pgs. 48-50, 78. When she forwarded Mclaughlin Complaint No.8 to !lb)(7)IC) I
!lb}(7)IC Iattached a note requesting that l<b}(7)(C) I"take my name offNRSI as contact for
this matter:' Exhibit 57, at pg. l.

        On the cover page of Mclaughlin Complaint No. 8 25 • Mclaughlin stated that he
had attached "a complete set of my correspondence to Mark Hauf, CEO of [Metromedial.
along with supponing documentation." Exhibit 57, at pg. 3. The attached materials
consisted of a four page letter, dated October 16, 2006, to Hauf in which Mclaughlin
complained that his demand for accounting workpapers had not been met and restated
many of the issues raised in his earlier complaints. ld. at pgs. 4-7. Mclaughlin also
questioned Metromedia's decision to file for bankruptcy. claiming that it was for the
purpose of "avoiding a shareholder vote to approve the asset sale." ld. at pg. 4.
Mclaughlin attached to his submission several news articles about unanswered questiOns
surrounding Metromedia transactions and corruption in Georgia and the former Soviet
Union. [d. at pgs. 8-16.

        In response to l(b)(7)(C) Irequests that l<b)(7)(C) Iremove her name from NRSI as
the staff attorney responsible for the Metromedia investigation. on December II, 2006,
 b7C       re uested that OlEA remove her as the contact person for Metromedia
complaints. (b)(7)(C) Testifion Tr. at g.52; Exhibit 61. However.llb}(7)(C)       Irequest to
the OlEA to "remove lb)(1)(C)              name as contact person with respect to
Metromedia International" would have had no effect on the information in the NRSI

2S
     Documents produced 10 the OIG did not include the lext of Mclaughlin Complaint Nos. 7 and 9.


                                                   31
This dOCUlMnt is subject to the provisions of tbe Privacy Act of 1974, aDd may requirt redaction befort
disdosu~ to third parties. No redaction bas beeD ptrfonoed by tbe Office or Ill5pector General.
Recipients of tbb report should not dassemiaate or copy it witbout the (llspector Genenl's approval.



system. which in January 2007, appeared still to have had the 2002 Metromedia
investigation listed as an active investigation withl(b)(7)(C) ~s the staff attorney to whom
the matter was assigned.

         Beca (b)(1)(q      as stillliSled in NRSI as the staff attorney on the Metromedia
invest!gation on Januar ...i, 2007J!b)(1)(C) feceived correspondence related to Metromedia
from (b)(7)(C)                    in the Division of Corporation Fmance. Exhibit 62.
Metromedia had come to (b)(7)(C) attention because the company was delinquent in their
filings but had "just filed [its] 2004lO_K.'.26 ld.l(b)(7)(C) Iwanted to know if the
investigation was "slated for closure," since the investigation had been opened in 2002
and "it [didn'tl look like anything hard) happened with it." ld.

          1{b)(7)(C) lresponded t o E lwith a copy to l(b)(7)(C) Ithat she had not "been in
the group that handled this mailer r~r about three years," adding, "When I left (b)(7)(C)
group, my lU1derstanding was that this matter was slated for closing." ld. (b)(7)(C)           then
 responded, on January              7, to(b)(1)(C) ndl(b)(7)(C) Ithat Metromedia was in the closing
queue, stating, (b)(7)(C) (b)(7)(C) Closing memo for this case has been drafted and has been
forwarded to Ilb)(7)(C) I(b)(7)(C) [sic]." ld. It is unclear upon what basis l(b)(7)(C) Istated
 that the closing memorandum had been sent to l(b)(7)(C) Ias the DIG investigation found
 no evidence that proper closing documentation had ever been prepared or sent to anyone.
Moreover, if [(iiW}(CO had the impression that l(b)(7)(C) Imemorandwn had been sent to
l(b)(7)(C) Iin FebruarY. 2004, he would have been acknowledging when he sent the e-mail
to ~andm7)(C) in January 2007, that the closing memorandum had been in the
closing queue or a most three years.

           Both ~ and [(b)(1)(C) Iwere focused on gelling b)( C)     10 remove their names
from the NRSI system and not on making certain thai someone was investigating
Mclaughlin's complaints. They both expressed frustration that Ilb)(n(C) Ihad not closed
the Metromedia investigation and that their names continued to appear in the NRSI
system as attorneys responsible for the Metromedia investigation years after they had left
l'b)(7)<c,    Igroup. ~ Testimony Tr. at pgs. 57, 63. l'b)(7)'C Istated that "it look[ed]
like" l'b)(7)<C' I"[couldn't] even get simple things done." ld. at pg. 63. To l'b)(7)<c, I"the
bot1om line is, why wasn't it closed? You see this matter on your sheets. You know it's
not closed. You follow up on it. You know, you do something. So, three and a half
years later, nothing has been done." Id. at pg. 65.

        The OIG investigation found that Mclaughlin Complaint Nos. 7, 8, and 9 were
not reviewed or analyzed by anyone. Conte Testimony Tr. at pg. 11.



261(b){7)(C) Istated that she thoughlthe Division of Corporation Finance should have contacted Enforcement
staff in 2007 and    included them in discussions with Metromedia and that the "communication could have
been better. (b)(1)(C) estimony Tr. at pgs. 154-155. However, the Division of Corporation Finance
appeared to have ma e some effort to contact Enforcement and was told that the investigation was slated
for closure. Exhibit 62.


                                                    32
    This document is subject to the provisions of (he Privacy Act of 1974, aDd mar ~uire redaction before
    disclosure to third parties. No redaction has been performed by lbe Office of Inspector CeDenl.
    Recipients or Ihis reporl should not disseminate or copy It without the Inspector Genenl's approval.


            E.	 Failure 10 Updale NRSI Database Affecled Abilily 10 Effectively
                Investigate Complaints

            This was not the first instance when illillWC20 referred a complaint to the incorrect
    staff person because the NRSI database had not been updated to show that an
    lnvestigation was no longer active or that staff members had left the group assigned 10 the
    investigation. !(bX7XC! ITestimony Tr. at pgs. 32·33. According to l<bX1)(C) Ihe "very
    often" found incorrect information in the NRSI database, which could lead to complaints
    not being reviewed or pursued and wasted time for the referring staff. Id. l(b)(7){C) I
    described his experiences with NRSl, in tbe following testimony:

                     Q.	 And have you ever attempted to contact someone listed
                         as a contact in NRSI and learned that the information in
                         NRSI was wrong or outdated?

                     A. That happens very often; and often we will find like it
                        was in this case. An investigation is left open but
                        nobody is really looking into it anymore. So, we're
                        sending infonnation to people who don't necessarily
                        want 10 see it but should see it.

                     Q.	 How does that affect your ability to handle these
                         complaints?


I                    A. Well, I think it affects the effectiveness of what we do.
                        If we're not sending the infonnation to the people we
                        should send it to that [sic] might take a look at it then
                        we're probably wasting our time.

            Ed.

           The OIG found that if staff changed on an investigation, the assistant director
    could request that an Enforcement case management specialist enter the change into the
    CATS system, which fed case information to NRSL McKown Testimony Tr. at pg. 18.
    However, there is no evidence such a request was made in this case.

            F. SEC's Handling of McLaugblin Complaint Nos. 10-16

           In 2007, Mclaughlin continued to submit complaints to OlEA. In August and
    Seplember 2007, Mclaughlin senl OlEA alleasl eight complaints ("McLaughlin
    Complaint Nos. 10-17") and inquired about the status of his prior complaints. Exhibit 63;
    Exhibit 64; Exhibit 65; Exhibit 66; Exhibit 67; Exhibit 68; Exhibit 69; Exhibit 70; Exhibit
    71.




                                                      33
This document is subject to the provisiODS of the Privacy Act of 1974. ud may require redaction before
disclosure to third parties. No redactioD hIS been perfonned by the OffICe of Inspector Geoerll.
Recipienu or tbis report shoukl not disseminate or copy it without Ute Inspector Geaenll's Ippronl.



        OlEA records reflected that [(b)(7}(C) Idid not forward Mclaughlin Complaint
Nos. 11·15 until after September 25, 2007 when, as discussed below. Enforcement
requested infonnation related to Mclaughlin's complaints. @ill!I(£LJdidnotrecaliwhy
there was a delay in referring these complaints, but stated that he handles ''thousands of
contacts every year" and could not "remember the specific circumstances surrounding
these particular referrals. ,,21 Exhibit 72. After September 25, 2007.I(b)(1)jC) I forwarded
six of the August-5eptember 2007 complaints to b c           (Mclaughlin Complaint Nos.
10-15). Id.

IV.	 Enforcement Finally Began-to Examine McLaughlin's Complaints After He
     Contacted Congress and tbe Chairman's Office, But the Investigation Began
     Too Late for the SEC to Stop the Sale of Metromedia's Assets

        While the failure to fonnally close the earlier unrelated Enforcement investigation
of Metromedia or to update the NRSI system contributed to the inaction on Mclaughlin's
complaints, the primary reason that Mclaughlin's complaints were ignored appeared to
be the failure of the Assistant Director and the staff who received the complaints to
review them or take any action to ensure that someone was taking responsibility for
handling the complaints.

       Mclaughlin's years of complaints may have remained unexamined had
Mclaughlin not persisted and sent a complaint ("Mclaughlin Complaint No. IS") about
the SEC's failure to investigate to Peter Uhlmann ("Uhlmann") (then Chief of Staff to
SEC Chairman Cox) and copied a Congressional staffer, !(b)(7}(C) Iand others. Exhibit
73. Mclaughlin stated that he had been introduced to Uhlmann "by a member of Senator
Sam Brownback's staff." Mclaughlin Testimony Tr. at pg. 17.

          Mclaughlin Complaint No. IS stated that Mclaughlin "assumed ... that [the
SEC] investigators were at work" because @ill!llcl:=]had sent a letter to him "early in
2006 saying that [the SEC] ... [was] taking my allegations about Metromedia's
accounting failures and lack of fiduciary care 'very seriously.·.. Exhibit 73, at pgs. 8-9.
However, Mclaughlin continued, "I stiIJ have not received a subpoena for the docUments
I have uncovered ove"r the past four years in my legal challenge and efforts to get answers
for all of Metromedia's shareholders. _. ." Jd. at pg. 9. He went on to ask the SEC to
investigate before all of Metromedia's assets were sold, stating: "My point to you is that
it isn't too late to stop the sale of Metromedia and do the full audit and investigation....
(T]he Titanic hasn't gone down yet and the damages can still be repaired." Jd. at pgs. 9~
10.




21 [{fume,,-)] stated that OlEA now has a policy ''that allegations of wrongdoing must be referred within
twcnty~rour hours ofrcccipt." Exhibit 72. This policy was nol in place in 2007. ld. In 2007, OlEA
handed correspondence alleging wrongdoing «in due course along with all of the many other pieces of
oorrcspondence that fit) received." ld.


                                                     34
Tbis document is subject to the provisions of the Privacy Act or 1'74, and may requice r-edaction bdoce
disclosure 10 third parties. No redactioa bas been performed b1 tbe Of['".ce or lospeclor General
Recipients of tbis report should not diSseminate or copy it without the Il1spedor General's approval.



          As discussed in greater detail in Section V.D., by the time the SEC began
investigating Mclaughlin's complaints in late '1fX)7, it appeared to Enforcement and
Division of Corporation Finance staff that it was too late for the SEC to stop the sale of
Metromedia's assets. Metromedia had been sold in a merger in August 2007 and had
terminated its registration with the Commission in early September 2007. See Exhibit 74
(stating that "On August 22, 2007, the acquisitjon of the ComR;IDm Parent was
com leted" ; Exhibit 75. Itb)(1)(Cl IIlb)(7)(C)      f
                                                  b)(7)(C)                                     I
(b)(1)(C)       in the SEC's Division of Corporation Finance, stated that she does not
believe the SEC would have had jurisdiction to stop a.sale of Metromedia's assets after
Metromedia terminated its registration with the SEC. l{b)(7)(C) II(b)(7)(C) IInterview Notes
1'b)(7)(C)      I Interview Notes"l,   January 13,2010, at Exhibit 18.

             A	 Head Enforcement Personnel Learned that McLaughlin Complaints Had

                Never Been Reviewed, Analyzed, or Investigated


          Mclaughlin's e-mail to Uhlmann began a scramble within Enforcement to learn
what had happened to Mclaughlin's complaints. Ultimately, head Enforcement
personnelleamed that none of McLaugWin's complaints had been reviewed, analyzed, or
investigated.£pnt         timony Tr. at pg. 15. Uhlmann e-mailed Mclaughlin's
com laint tol{b)(7)(C)          who served as Counsel to former Chairman Cox. Exhibit
73.	 (bX7)(C)          then f9rwarded the e-mail to Walter Ricciardi ("Ricciardi), then
De ut Director of the Division of Enforcement. ld. Ricciardi forwarded the e-mail to
IbX1)(C)                        and Mark Schonfeld who worked in the Enforcement
Division and asked if"someone [was] woekin on Metromedia." ld. at pg. 6.I(b)(7)(C)
responded that "NRSI show[ed] (b)(7)(C)            in the Home Office, with an
investigation opened in 2003." ld. at pg. 5. (bX7)(C) copied b c on the e-mail and
asked "ror "a brief update on status" of the matter. ld. On September 24, 2007,I(bx1)(c I
responded that the Metromedia investigation was supposed to have been closed years
before:

                   Metromedia is a very old FCPA investigation that went

                   nowhere. The closing memo was drafted at least 2 years

                   ago and (to m knowledge) has been in the "closing" queue

                  .with Ib)(7)(C)          office si.nce that time. (As far as I
                   am concerned, the matter has been closed for sometime.)

                   Please contaetJ{bX1)(C)        lor l(b)(1)(C}      Ifor more

                   information.


Id.	 at pgs. 4_5."

     Ricciardi then forwarded the e-mail chain to Enforcement Chief Counsel
McKown, who responded to Ricciardi and added IC b)(7)(Cl li(b)(1)(C) land !lbX7)(C)                I as

                                    lb KCJ
28 The memorandum referred to   inl   )t7   ISeptember 24, 2007 e-mail was actually prepared in February
2004, lhree~and-a-half years before. Exhibit 48.
                                                                                                           ..
                                                   35
This document is subjed to the provisions of the Privacy Act of 1974, aDd may require redaction before

disclosure to third parties. No redaction has been performed by the Ofrla of Inspector Gene~l.

Recipients of this report should not disseminate or ropy it witbout the InspedorGenenJ's appro"a!.




e~mail recipients. [d. at pgs. 3-4. McKown wrote that the Chief Counsel's Office had no
record of the Metromedia investigation ever being submitted for closing, stating: "'We
have no record of receiving this closing. If this case should be closed please send us the
closing memo." [d. at pg. 3.

       1(b)(7)(C) Iresponded that his "notes indicate this closing memo was processed
long ago. Our investigation did nOl, however, address concerns raised by Mr.
Mclaughlin." /d. at pg. 2. In response, McKown restated that the Chief Counsel's
Office had nol received the closing documents and again requested, "If [the case] should
be closed send us the appropriate closing documentation and we will process it." [d. at
pg.2.

           l(b)(7)(C) Ialso sent an e·mailto l(b)(7)JC Iand Ilb}(7}{C) Iasking them if "this required
documentation had been prepared at the time the closing memo was drafted." Exhibit 76.
l(b)(7)(C Iresponded, "My (vague) recollection is that a closing memorandum was prepared
and submitted to~C)                    II could be wrong about that, and I haven't kept any
records." /d.

         B.	 The 2002 Metromedia FCPA Investigation Had Not Been Properly
             Closed

           In response to McKown's request for closing doc.umentatio~!(b)(7)(C) Isent
 McKown the closing memorandum that 1(b)(7)(CJ 1 had drafted in 2004. Exhibit 77.
 McKown sent an e·mailto !(b)(!)(C) Iin response and added (in addition to Ricciardi,
l(b)(7)(C) I and Ilb)(7)(C) IAssociate Director Conte and Staff Attorneys 1(b)(7)(C) 1and b 7        C
 10 the e~mail chain. [d. McKown stated in the e·mail that the memorandum that
 !(b)(7)(C) Ihad sent her that morning l(b)(7)(C) 12004 memorandum) was insufficient to
 close an investigation:

                 [T]he attached memol(b)(7)(C)      ~sent me this
                 morning is not a closing memo that would have been
                 processed, rather it is an informal memo circulated amongst
                 the investigative staff. I assume what people are looking
                 for is the official closing documentation which would have
                 had signatures sbowing that staff had signed off on the
                _decision and making all the appropriate representations
                 regarding FOlA and the disposition of the documents.

/d.

        l(b)(7)(C) Ihad been an assistant director in Enforcement sincel(b)(1)(CI  ~
Exhibit 78. However, according to an e·mail exchange between Conte and McKown,
afte~icf) years as an assistant director,I(b)(!)(C) Idid not appear to know the procedures
for closing an investigation. Exhibit 79. Conte described (b C)           apparent




                                                  36
This document is subject to the provisions or the Privacy Ad or 1974, and may requi~ redaction bero~
disdosu~ to thint parties. No redaction bas been performed by the Office or Inspector General.
Recipients or this report ~bould not disseminate or copy it without the Inspector Ceneral's approval.


·understanding of what a closing memorandum was as "sad." Id. In the following
 testimony, Conte explained his reaction to l(b)(7}(C) I submission:

                 AJI I can say is that i~(bXT)(C)       !believed that the
                 memo that he forwared on to me in this time period was a
                 closing memo that was sufficient to actually close a matter
                 in the system, then he was mistaken about that.

Conte Testimony Tr. at pg. 15.

          In an ewmail exchange with Conte, McKown blamed l(b)(T)(C)   Iapparent lack of
 JJd_ersta-"-din2..abuu.Uhc-closin2.D_mcess-<>.ahis..n~coming
                                                           up  through the ranks" as a
(b)(7)(C)                                             Exhibit 79. ~c=J closing
memorandum submission also made McKown question his supervision on other matters,
stating, "It also makes me wonder about how carefully he has looked at the closings he
has signed.» Id.

         C.	 Assistant Director Claimed Not to Have Received McLaughlin's
             Complaints

        As Enforcement attempted to find out what happened to Mclaughlin's
complaints,I<b)(7)(C) Ieither did not recall receiving the complaints from l(b)(7l(C) lor
attempted to shift the blame to her for the ignored complaints. For example, in a
September 25, 2007 e-mail, [(bX1)(C) Iwrote Conte that he was "not aware of the
complaint ... reference[d]" in Mclaughlin's e·mail to Uhlmann or a letter Mclaughlin
received from OlEA. Exhibit 73. However, b 1 C            should have been aware of the
complaint and the OlEA response letter because (be 01G found that those documents
were part of the March 16, 2006 referral (Mclaughlin Complaint No. 6) thar7)IC~ad
forwarded to li!illWC):=J in 2006. Exhibit 73; Exhibit 56; Exhibit 44.

        In addition to writing to senior Enforcement personnel that he was unaware of an
earlier Mclaughlin complaint that had been sent to him.l(b)(1)(C) Isent an ewmail to
Conte on September 25, 2007, stating that 11b){71lCl I had received Mclaughlin's complaints
and that he had not received them:

                l(bX7}(C)	                   ladvises (by phone) that he
                 contemporaneously provide aU infonnation/correspondence
                  from McLaughlan [sic] to (bX7)(C) sic], who was one of the




                                                  37

  This document is subject to the provisions of the Privacy Aci of 1974, and may require redaction before
  disclosure to third parties. No redaction has been performed by the Office of Inspector Gt-neral.
  Recipients or Ihis report should nol disseminate or copy il witboul 'he Inspector General's approval.


                      staff attorneys on Ihis matter, now works for Joan
                      [McKown].[29] We saw/received none until today.

  Exhibit SO.

          Later that afternoon, (b)( C} sent a second e-mail to Conte attaching, l(b}(7}(C)

  March 16, 2006 complaint and stating.; «This apparently went tol(b)(1}(C)            ,[sic]."

  Exhibit 81. What l(b)(7)(Cl I omitted was that after [C b)(7)(Cl Ireceived the complaint, she

  forwarded it to him by interoffice mail. Exhibit 56.


            ~ testified that she "would strenuously disagree"  with b C
  representations that he had not received Mclaughlin complaints. 1(bJ(1)(C) I Testimony Tr.
  at pg. 63. [(bJ(1)(C) Itestified that she bad forwarded to c all of the complaints that
  she received related to Metromedia:

                     I would disagree Ihal he IlbX7){C)   Isaw none of that. 1
                     forwarded everything to him. I do recall speaking to him at
                     some point. I e·mailed him. ... He had his facts
                     incorrect.... I would say that this letter [the March 16,
                     2006 referral], I sent to him.... I forwarded it to him in
                     interoffice mail. I specifically remember doing that, and I
                     also sent him an e-mail telling him that I was forwarding it
                     to him. So his statement to Chris Conte is correct but
                     incomplete. It did come to me, but it was then forwarded
                     by me to him. He also misspelled my name.

 lei. at pgs. 63, 66·67.

              Months after he first told Conte that he had nol received any Mclaughlin
  complaints, l(bj(7HC) Icontinued to imply to Conte that he had not seen McLaughlin's
  complaints. l(b)(7)(C) Iwrote in a March 31, 2008 e-mail to Conte that he had "nothing on
. the [Metromedia] case between 2/1212004 and 9125!2007." Exhibil82. To the contrary,
  Ilb)l7XCJ Itestified thaI she senll(b)(7)(C) Iall of the complaints that she received during that
  time period:

                     The information thatl(b)(7}(Cl       lis giving to
                     Christopher Conte in [the March 31, 2608 e-mail] is
                     incorrect. He absolutely was given some infonnation
                     between ... February 12, 2004 and September 25, 2007.
                     sent him an e-mail. I know I talked to him at least once.
                     There were other e-mails.... I would've forwarded [other


 291(b)(1}(CI                               lwas       no Ion er working in the Office of Chief Counsel and had
 relurned 10 being an investigative allorney in"lb.:.X:..7){.:.C.:.'                                       --,--'
(bJ(7)(CJ   esIimony Tr. 31 pg. 68.            ­



                                                       38

This document is subject to the provisions or Ibe Privacy Ad or 1'74, Ind DUly require redaction berore

disclosure 10 tbird parties. No redaction has been perfonned by Ibe Office or Inspector General.

Recipients or thi.s report should not dissemiaate or copy it without the lospet:tor Ceneral's Ipprovii.    '.



                     complaints I received].... I would've done more than just

                     forwarded them. I would've also telephoned him to let him

                     know to look for them, but I definitely forwarded all of

                     them.


(b)(7)(C) estimony Tr. at pgs. 78·79. The OIG investigation revealed evidence that in
 addition to sending Mclaughlin Complaint No.6 to 1(b)(1){C) 11(D)(1)(C) ISent him
Mclaughlin Complaint No.8. Exhibit 57, at pg. 1.

         [@@Cl---=oJpoor relationship with his staff may have indirectly contributed to the

mishandling of Mclaughlin's complaints. Bot~(b)(7J(C) :and !(bX?)(C I appeared to hav~e;,..~

changed positions at the SEC. at least in part, to stop working for l@f7Xq=] Afteri(b)(7J(C)

and !(b)(7)(C I left his group, they both refused to do additional work for him and appear to

have avoided extraneous communication with him. Exhibit 83; Exhibit 84; (b)(7)(C)

Testimony Tr. at pg. 54.

       1(D)(1J(C)   Istated that she "didn't have a great relationship with {b)(l}(Cl  " and

l(b){1}(C I and ~cO appeared      to have had a hostile relationship (b)(1J(C) estimony Tr.

at pg. 54; !lbX?)(C ITestimony Tr. at pg. 28. bX C stated that [(bX7)(cr=J"chased [him] out

of the Division [of Enforcement]. l(b)(l)(C) Isaid: You've got to go." b c Testimony

Tr. at pg. 28. ~ believed that there was a problem with closing cases for which he

was responsible for because of personal animus, stating: "I can only conjecture that the

problem [with closing cases] involved my group because I was not liked." Id. at pg. 36.


          D.	 The Decision Was Made to Leave Open the Unrelated 2002 Metromedia

              Investigation


        In late September 2007, l(b)(7)(C) Iexpressed that his group would take care of the
 documentation necessary to close the Metromedia investigation despite that
 McLaughlin's complaints had never been reviewed, analyzed, or investigated. Exhibit
·85; Exhibit 86. Associate Director Conte had a different view, however. Conte
 determined that the Metromedia investigation should not be closed until Enforcement
 detenniried whether McLaughlin's complaints had "any potential merit," even though he
 acknowledged that the FCPA investigation was <lumelated" to Mclaughlin's complaints.
Exhibil79.

         The decision to investigate Mclaughlin's complaints under the 2002 FCPA

investigation number veiled the fact that Mclaughlin's complaints, which had been

coming into the SEC since early 2005, had not been investigated. Conte, however,

testified that his decision to have the Mclaughlin complaints investigated under the 2002

FCPA investigation number, rather than under a new matter number, was based entirely

on practical consideralions. Conte Testimony Tr. at pgs. 21·22. Conte explained in the

following testimony:





                                                    39
 Tbis document is subject to the provisions of the Privacy Act of 1974, and may .require redaction before
 disclosure 10 Ihird parties. No redaction has been perfonned by tbe Office of Inspeclor General.
 Recipients of Ihis report should not disseminale or copy it withoullhe Inspector Genen!'s Jlpproval.



                   [W)hile it had been originally opened as an FCPA matter,
                   for my purposes, there really was no distinction that I could
                   sort of think of about, well, we'll close the FCPA and
                   re-open a new matter entitled, 'Metromedia.' .. , So 10 me,
                   at the time,l never really gave any consideration 10, okay,
                   let's close the FCPA piece and then re-open il in the name
                   of something else since ... it just would have anotber
                   number, but it would still have the same name as far as I.
                   was concerned. And that would be sufficient to. you know,
                   identify us as people to bring concerns to.

 ld.

         Conte's decision to add the investigation of Mclaughlin's complaints to the 2002
 Metromedia investigation appeared to have fallen within Enforcement protocol.
 McKown testified that Enforcement did not have a procedure in place for determining
 whether an investigation about a new issue should be added to an existing investigation
 involving the same company or whether a new investigation should be opened. McKown
 Testimony Tr. at pg. 19. McKown stated that how a new issue is handled is a "judgment
 call" that is usually made by the assistant director. ld. at pgs. 18-20. McKown further
 explained as follows:

                  There's ajudgment that's made as to whether it's similar.
                  If it's a similar allegation or complaint, it could be just
                  rolled into the current investigation, the open investigation.
                  ... Sometimes it's more efficient to open a new
                  investigation. Sometimes it's so related that you just merge
                  it into - you just take it on as part of the open
                  investigation.

 ld. at pgs. 19-20..

          However, although Enforcement protocol did not require the opening of a new

  investigation number, some of the confusion that had occurred (and continued to occur)

  may have been avoided if the 2002 Metromedia investigation bad been officially closed

  and a new investigation had been opened to investigate Mclaughlin's complaints.

(b)(7)(q   tated that adding a new issue to an existing investigation about a particular
  company "wouldn't be crazy or inappropriate, but jf a matter's closed, you think it's
  closed, then it should be closed and if there's a new referral, then ideally you'd open
  something else up, but, again, as a staff attorney, that's my way of doing things,"Ir,;~ijill'J(CJ;;;n­
 Testimony Tr. at pgs. 40-41, 73. ~ thought that technically the new Metromedia
  complaints could have been investigated under·the old case number, but noted that, in this
 case, a new matter number needed to be opened because ..the reality is that Metromedia
  was finished for us." l(b)(7)(C] Testimony Tr. at pg. 41.




                                                    40
This document is subject to the provisions or Ute Privacy Act or 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by (he Office of Inspector General.
RedpienlS of this report should Dol dissemiDate or copy it without tbe IDspector Ceneral's approval.


V. Enforcement Finally Began an Examination of McLaughlin's Complaints

        After learning that Conte would not close the Metromedia investigation without
tbe allegations in McLaugl!lin's complaints being examined, on September 25, 2007
[(bX7XC) Isent an e·mail tol{bX7}(C) lone of the Branch Chiefs under his supervision,
stating that no one had previously examined tbe Mclaughlin complaints and Conte                           ' ..
                                                                                                             ,

wanted the complaints "look[cd] into":

                  Possible Mclaughlin has some basis to his complaint.

                  Chris [Conte] is interested in having someone look into it.

                  Appears no one has. Let's discuss tomorrow.


Exhibit 87. The OIG found [(bX7}(C) I should have been aware that no one had looked at
Mclaughlin complaints since b 7 C)      had received Mclaughlin complaints and did not
appear to have reviewed them or assigned anyone to do so.

        On September 25. 2oo7.I{bX7}(C) Icontacted 1{b)(1)(C) I regarding Mclaughlin's
oomplaints. and l@t!Hf:Usent to 1{b)(7)(C) IMclaughlin Complaint Nos. 10·15 and
several newly·received complaints related to Metromedia. Exhibit 80; see, e.g., Exhibit
63, at pg. 2 (showing Mclaughlin Complaint No. 10 referred to @l!!BcCJon 9fl5f2IXJ7).

         A.I(b)(7)(C)   land 1{b_)'_n_'C_)_---.Jlwere Briefly Assigned to the Investigation

        The discussion between l(b)(7)(C) Iandl(b X7)(C) lied tol<b)(7){Cl land Enforcement
Staff Attomeyl(b){7)(C)                             I
                                               being assigned to examine Mclaughlin's
complaints in October and November 2007. ~C)                ~lnterview Notes (b)(7)(C)
January 8, 2010 Interview Notes"), January 8. 2010, at Exhibit 16. (b)(7)(C)         had joined
the SEC inl<b)(7)(C)             land had been a staff attorney forll b)(7)(C)           lprior
to being assigned the Metromedia investigation. Exhibit 88.

          WhenI Cb )(7)(C) Iwas assigned to review McLaughlin's complaints, he appeared to
have believed the Metromedia investigation would be quickly cl9sed. A Branch Chief
that later took over the Metromedia investigation recalled that~b)(7)(:fJtold her,
"Metromedia was a case that needed to be closed so it wasn't a case that there was going
to be a full·blown investigation out of, was my understanding." Testimony Transcript of
IbH7)(C)                   Testimony Tr.") Seplemher 24, 2009, al Exhibit 2, al pg. II.
(b)(7}(C) stated that he did nol recall stating that the Metromedia investigation needed to
be closed, but he did recall havin lite impression that the conduct alleged was "old
conduct from the early 2000s." (b)(7)(C)              Interview Notes ('F7}(Cf)anuary 26,
2010 Inlerview Notes"), January 20.2-01-0, at           ·hit 17.

        Although the attorneys tasked with examining Mclaughlin's complaints may
have initially believed that the Metromedia investigation would be quickly concluded, the
DIG found that an appropriate review of Mclaughlin's complaints was performed. at
least partially in response to aUention from Congress. Beginning in the fall of2007,lhe


                                                    41
     This document is subjed to the provisions oC the Privacy Ad oC 1974, aad may requirt redaction bdort
     disdosure to third parties. No redaction has been performed by the Orrttt oC Inspector General.
     Recipients of tbis report sbould not dinemiute or copy it without the blSpector CeDenl's approval



     SEC received numerous letters from Members of Congress inquiring about the status of
     the Metromedia investigation.30

            After !(b)(7)(CI I and 1(b)(7)(C) I were assigned to the Metromedia investigation,
     (b)(7){C forwarded approximately five additional Mclaughlin complaints to l(b)(l)(C)
     in October and November 2007. Exhibit 99; Exhibit 100; Exhibit 101; Exhibit 102;
•    Exhibit 103.31

            The primary work that (b C)     and Ilb)(7)(C) Iperformed on the case consisted of
     background internet research on Metromedia and an October 6, 2007 telephone interview


    .30 For example, on October 9, 2001. Senator Gordon H. Smith of Oregon sent the SEC a letter, requesting
     that the SEC look into McLaughlin's request for the SEC "to stop the sale of the; remaining assets of
     Metromedia" and to send the SEC's findings to Smith, which was referred to liiKtlLC] Exhibit 89. at pgs. 3.
     8. On the cover sheet to 1(b)(7)(C) ;;fb)(7)(CI   lof Enforcement wrote, ~)(C) ~ HO -= I know you
     are closing the FCPA investigation, but please look at the constituent's allegations. Pis also send response
     re 'we follow up orndlleads, but can neither conftrm nor deny...• Id.

    On November 7. 2001, Senator Olarles Grassley of Iowa sent a letter 10 the SEC enclosing a letter from
    Mclaughlin requesting that the SEC stop the sale of the remaining assets of Metromedia. Exhibit 90. at
    pgs.5-7. Grassley requested "any assistance [the SEC] could provide pertaining to this matter." Id. at pg.
    5. tThlm@referred the Grassley letter to ll!illIllCLJ on November 15. 2007. Id. at pg. I. Also in
    November 2007. the SEC received a leiter from Senator Tom Harkin of Iowa, asking Ihe SEC to review the
    issues raised by Mclaughlin and to send a response to Harkin's office. Exhibit 91, at pgs. 3-8.

     In early December 2007. Senator Grassley's office called the SEC to ftnd out the status of the SEC's
     invesligation of Metromedia. which wasjust getting underway. Exhibit 92. In addition. on February I,
     2008. Senator Olristopher Dodd sent a letter to Olairman Cox. attaching a letter from Mclaughlin and
     stating that McLaughlin "indicated that he brOUghl this roncern to the attention of the SEC at least twenty
    .months ago." Exhibit 93, at pg. 4. Then. on February 28, 2008, Representative Tom Latham of Iowa sent a
     letter to the SEC stating that "a group of Iowans" who invested money in Metromedia believed "there was
     serious financial impropriety at Metromedia." Exhibit 94. at pg. 3. Latham attached a letter from
     McLaughlin and requested that the SEC provide "an update on this matter." Id. at pgs. 3·5.

    On March 20. 2008. Representative Leonard Boswell of Iowa requested that the SEC review Mclaughlin's
    allegations about Metromed.ia and send Boswell "answers to the questions he has raised." Exhibit 95. at
    pg. 3. Similarly, on November 18, 2008. Representative Broce Braley of Iowa asked. the SEC to review a
    complainl from one of Mclaughlin's clients about Metromedia and the SEC's inaction and to "provide
    answers." Exhibit 96, at pg. 3.

    Finally, on March 3. 2009. the United States House of Representatives Committee on Financial Services
    sent Chairman Schapiro a letter stating that they il had received documents from McLaughlin "alleging
    violations of the securities laws regarding Metromedia International Group Incorporated" and that they
    "hope[dj your staff w[ould) thoroughly review these documents." Exhibit 97.

    In November 2008. Senator Grassley requested that the OIG "take whatever action it deem(ed] necessary to
    examine Mr. McLaughlin's allegations including whether or not the SEC Division of Enfoceement properly
    handled the allegations regarding Metromedia International Group." Exhibit 98. On November 16.2008,
    the OIG opened an investigation. which culminated in this Report of Investigation.

    31 Several Mclaughlin romplaints received by the SEC have not been discussed in this report because
    they were oonsidered by OlEA to be repetitive and were not referred to Enforcement.


                                                         42
  This document is subjecllo the provisions oflhe Privacy Act of 1974, aDd may f'lQuire redaction berore
  disclosure to third parties. No r-tdaction has bceo performed by the Omce of Inspector Genen!.
  Recipients or this report should nOl disseminate or copy it without ttle laspector General's approval.


                                                                                                   U
  of McLaughlin. Testimony Transcript ofl(b)(7)(C)             fTestimony Tr.                          )


  September 25, 2009 and September 29, 2009, at Exhibit 3, at pgs. 11-12; [lb)(7)(C) !January
  8,2010 and lanuary 26, 2010 Interview Notes.

            B.	 Staff Changes and Failure to Update NRSI Affected Referral of
                Complaints

              By late November 2007, the staff on the Metromedia investigation was replaced
    once again. l(b)(7)(C)  Iwas reassigned to an urgent matter, and (b)(7)(C)            (b)(7)(C)
    another new Enforcement staff attorney who had (b)(7)(C)
        I
l(b)(7)(C) took l(b)(7)(C~   I lace on the Metromedia Investigation under the sup,ervlsion of
    Branch ChiefI(bi(7)(C)                              Testimony Tr. at pg. 10; (b)(7){C) estimony
    Tr. at pgs. 9-11; Exhibit 104. (b)(7)(C) was a=(b;;)(~7),(C.).                           -----'
    (b)(7)(C)                   estimony Tr. at pgs. 7·8.

            As discussed previously, staff changes on the Metromedia investigation had not
  been updated in NRSI and )( C of the OlEA was provided with ad hoc instructions
  regarding to whom to send Metromedia complaints. For example, [(b)(7)(CI Itold
 l(b)(7)(C) Ito stop sending Melromedia complaints to 1(b)(7)(C) I·then 1(b)(7)(CI Iappeared to
  have instructed [(bX7)(C) )10 send the com laints to [(bX7)(C)     I then       C     told
   b C to send the complaints to (b)(7)(C) instead of to her. Exhibit 61; Exhibit 104.
 l(b)(7)(C) Ifound this high level of turnover on one investigation to be unusual, and that the
  failure to update NRSI was detrimental to the referral process. 1(b)(7)(C) ITestimony Tr. at
  pgs. 32-33, 59-60.

         l(b)(7)(C) Iwas not the only one whose attempts to refer complaints were frustrated
 by the failure to update the ~lr9medi inforrnatio'n in the NRSI database. On May 30,
 2007, Enforcement attorney (b)(7)(C)      e·mailed l<b)(7)(C Ibecause his group- was looking
 at Metromedia "for a possible 120) proceeding." Exhibit 105, at pg. 2. 3fb)(7)(C} ~tated he
 was contacting [(b){!j(C)even though "I believe you are no longer in Enforcement,"
 because ~ was listed in the co.nlj:~uter system. Id. l(b)(7)(C) replied t9(b)(7)(C) ~at he
 should check withl(b)(7)(Cl lorE7)(Cl           lId. at pg. 1.

          On September 27r;'; 2007 (b)(7}(C)                           of the Internet
 Enforcement Group sent[b)(71(C) a romplaint from Mclaughlin because the NRSI
 database still showed the 2002 Metromedia investigation as open with j(b)(TMCl Ias the staff
 attorney. Exhibit 106 (b)(T)(C}         nded that she had not been on the matter "for years"
 and copied       C     Id. (b)(7)(C)       replied that the Metromedia investigation "looked
 a bit old." It!




 n Under Section 12(j) of the Securities and Exchange Act of 1934, the Commission is authorized to deny,
 suspend or revoke the registration of a security if it finds, after notice and opportunity for hearing, that the
 issuer has failed to comply with any provision of the Act, or [he rules and regulations thereunder.


                                                        43
 This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before

 disclosure to third parties. No redaction has been perfonned by the Office of Inspector General.

 Recipients of Ihis report should not disseminate or copy it without the Inspe<:tor Genenl's approval.



             On October 4, 2007,1(b)(7)(C)     [forwarded a Metromedia·related complaint to
  l(bX7)(C 1 and asked him to "pass this along to whomever took your place on the
  Metromedia matter." Exhibit 107. Ilb)(7)IC 1forwarded the e-mail to [(b)(7)(C) I and sent a
  copy to ~Cl OJ It!. Then on October 5. 2007 .l'b)(1)(Cl          Iforwarded @8![Cl::=Janother
  Metromedia complaint received by Internet Enforcement, and II C)               res nded, ""i1b","i.)(C)c>
. 1(b)(1)(C)   'I in my group is investigating this one_" Exhibit lOS. (b)(7)(C)     who had
  directed Metromedia·related complaints to at least four different people, asked l<b)(7)(Cl
  to change the contact information in NRSI:

                    1(b1(71(C) IWould somebody kindly change the contact
                        information on NSRJ for this matter, so we can avoid any
                        future mix-ups?

 It!. It did nOI appear that the NRSI contact infonnation was updated in response to the

 request.


          c.	 ]n Late Nuvember 2007, the Enforcement Accounting Group Began to
               Analyze McLaughlin's Complaints as Part oftbe Enforcement
               Investigation

             As discussed above in Section ]1.0., Mclaughlin'S 2005 complaints may have

 continued to sit without review in the Enforcement Accounting Group indefinitely had

 Associate Chief Accountant b 7 C not been assigned to assist the Enforcement attorneys

  with their Metromedia investigation in late November 2007. IlbX7)(C) ITestimony Tr. at pg.

 27. l<bllVlCll recalled that when Markel assigned her to assist the Enforcement attorneys

 with the Metromedia investigation, she "realized that Metromedia was also on the

 [Enforcement Accounting Group's] referrallist,,33 and had the Metromedia files in

 l(b)(7)(C) 1possession provided to her. Id: at pg. 27; Exhibit 109. lli0(f~ recalled, "This is

  the first time, in my mind, that I was being assigned to ... an investigation in a while,

 and in my mind I was being assigned to an investigation involving Metromedia, and that

 the allegation was that there was something like $100 million missing." [(b)(7)(C) 1

 Testimony Tr. at pg. 28.





 D When (b)(7)(C)      s assigned to assist wjth the investigation, 5raff AttorneytmCI ~s not initially aware
 that the Enforcement Accounting Group had received Mclaughlin's complaints or review in 2OOs.I(bj(7)(C)
 did not learn tha (b)(7)(C) ad been the supervisor responsible for the McLaug.!!lin referrals until
 appro~imalely F~ of 2008 when she reviewed e-mails from 2005 )(7)(C)"trestimony Tr. at pg. 21.
 Whent.)I7)(C) and(bJ(7)(Cflliscussed the 2005 Mclaughlin referralS)(b){7)(CJ I earned tha((b)(7MCJpad received
 copies omcLaughlin's complaints, but the Enforcement Accounting group had done "'no work" on the
 referrals. Id. at pg. 12.


                                                      44
This document is subject lO the provisions of Ihe Privacy Act of 1974, and may require redaction before

~isdosure to third parties. No redaction has been petfonned by the Office of InspeclOr Genenl.

Recipients of this report should not disseminate or copy it without the Inspector General's approval.



         D. Examination of McLaughlin's Complaints Began Too Late for the SEC to
            Take Meaningful Action

       In late 2007, Enforcement attorneys finally undertook an appropriate analysis of
McLaughlin's allegations. However, by the time they began investigating, it appeared to
the Enforcement attorneys that it was too late for the SEC to take meaningful action.

        Many of McLaughlin's complaints were focused on the SEC stopping the sale of
Metromedia's remaining assets pending an investigation. Set;, e.g., Mclaughlin
Complaint Nos. 8,11,18,23; Conte Testimony Tr. at pg. 27. In addition, several of
McLaughlin's clients submitted complaints in 2007, asserting that the SEC had failed to
investigate and requesting that the SEC halt the sale of Metromedia's remaining assets.
See collectively at Exhibit 110.

           However, as discussed above in Section IV., by the time the SEC began to
examine McLaughlin's allegations, Metromedia had already been sold in a merger.
 Exhibit 74. In September 2007, Metromedia had tenninated its registration with the
Commission and it appeared to Enforcement and Division of Corporation Finance
     rsannel that the SEC could not have stopped a sale of Metromedia's assets. Exhibit 75;
 (b)(7)(C)    Interview Notes. As[(b)(7)(C) Istated, "the sale became complete or final in
August. So I didn't feel that [McLaugWin's request for the SEC to stop the sale of
Metromedia] was a complaint that merited a lot of investigation because it was over."
l(b)(7)(cl Testimony Tr. at pg. 27.


        Associate Director Conte, who was supervising34 the Metromedia investigation,
stated that when he initially began looking at Metromedia, he understood that
"McLaughlin was talking about the (SEC] needling] to stop the transaction" so he
"evaluate[d] whether or not there was some need for an emergency action," and he
learned that the sale of Metromedia had already occurred. Conte Testimony Tr. at pgs.
22,27-28. Conte explained the reasons why Metromedia's new status as a private
company weighed against allocating Commission resources to pursue an ~nvestigation:

                 Q. [W]ould it be important to your investigation whether
                    or not Metromedia was a private company or not?

                 A.	 Yes.

                 Q.	   Why?

                 A.	 Sort of a couple of things. One, we would - if you
                     have a public company, then you have a pUblic


"   From late September 2007, when the Chainnan's Office brought McLaughlin's complaints to the
attention of head personnel in Enforcement, Associate Director Conte "was ultimately supervising the
consideration of whether or not there was anyihing that we could do in the Division to pursue, as an
Enforcement matter, the complaints that Mr. Mclaughlin had been raising over time." Conte Testimony
Tr. at pg. 22.


                                                   45
 This dowment is subject to the pro"risions oflhe Privacy Act of 1974, aDd may require redaction befoN:

 disclosure to third parties. No redactioo has been perfo.-.ned by the Office of inspector- Geoer1l1.

 ReclpienLs of this nport should 001 disseminate 0,- c:opy it witllout the Inspector Geoen)', approval.




                        company to charge, ultimately, with potential
                        violations. If you have a public company, it is a lot
                        easier to obtain documents, obtain, I think., cooperation.
                        And this one is also more complicated by the fact that
                        the last financial statements this oompany actually
                        issued were 2004, which they didn't issue until 2006, I
                        believe. So they had not filed any financial statements
                        in '05, '06, and '07. So and more particularly, this was
                        a private company. but it had very little operations by
                        the time we got around to looking at it in '07. It had
                        sold most of its assets, you know. And again, its
                        operations were primarily in the former Soviet Union,
                        China, Georgia. And so there was a concern about the
                        location of records, the ability to [receive J records.
                        And that would be even more complicated by the fact
                        that the company was private, at least in my estimation.

 Conte Testimony Tr. at pg. 30.

              E.	 Investigative Steps Taken By Enforcement to Analyze McLaughlin's
                  Complaints

         Despite thai the Enforcemenl attorneys assigned to the investigation of

 McLaughlin's complaints recognized from the outset that Metromedia was no longer a

 public company registered with the Commission and that the alleged unlawful conduct

 occurred several years prior, Ihey finally undertook an appropriate examination of

 McLaughlin's complainlS at the end of 2007.


         As part of their examination, the Enforcement attorneys reviewed and analyzed
Mclaughlin's complaints, Metromedia's filings, and documents produced by
Mclaughlin and his attorney, including Metromedia discovery materials from private
litigation. See, e.g., Exhibit 111; Exhibil112 (Mclaughlin stating. "r am beginning 10 .
produce ronfidential documents based on a waiver granted to mj by M1etromedia
Inte~tional Grou~ Inc...~j(bJ(1)(C) frestimony Te. at pgs. 60-61. (b)(7J(C) and ~ viewed
(b)(5),(b)(7)(C)




3S   l(>x5,
(b)(5)
                                                                                                      I




                                                   46

This documeDt is subject to the provisions of the Privacy Act of 1974, aDd may require redadioD before
disclosure to third parties. No redactiOD bas been performed by tbf: Office or lospector Genenl.
Recipients or this report sbould Dol dissemiDate or copy it without the laspKtor Genenl's approval.



company (Metromedia] and neither of those raised issues of securities fraud."llb)(T)(C)

Testimony Tr. at pg. 70.


         One of Mclaughlin's allegations that appeared to fall within the statute of
 limitations involved Metromedia's sale of ZAO PeterStar, a company in which
 Metromedia held an interest. [d. McLaughin had alleged that Metromedia sold ZAO
 PeterStar at too Iowa price and that the sale involved self-dealing because Metromedia
 executives received significant bonuses upon the completion of the sale. Exhibit 114 at
. _~. 6·7. After reviewing Melromedia's filin~ and other documents.,L(b.::xs.::'       -I
(b)(5)




""''''"''' Likewise, after consulting with staff from the Division of CoffiQration Finance.
(b){5),(b)(7)(C)




         In addition to reviewing and analyzing documents, Enforcement attorneys
contacted other law enforcement organizations that were familiar with Mclaughlin's
allegations against Melromedia. Exhibit 114, at pgs. 3-4. Enforcement attorneys spoke
to staff at the Office of the United States Attorney for tbe Southern District of New York,
the Office of the United States Attorney for the Southern District of Iowa and the Office
of the Attorney' General for the State of Iowa (b)(5)
(b}(5)




           F.	 The Enforcement Attorneys Determined the Metromedia Investigation
                   Should Be Closed

          In early April ~, the Enforcement attorneys and accountants working on the
Metromedia investigation mel to discuss the investigaGon. Exhibit 117. At the meeting,
Associate Director Conte stated that he believed that the Metromedia investigation should
be closed. Exhibit 118; Conte Testimony Tr. at pg. 39. Conte expresse;dilli~n~le~S~(im=o~n=y==1
iliat his view that the investi2atioru1lQ.ul<Lb..e...clos.ed-w:aSJ)rimariLv_bas.e:o b 5
(b)(5)

(to)(5)          Following the April meeting, ~b)(7~ sent Conte an e-mail stating that
he and the auorneys working on the investigation also believed that the matter should be
closed. Exhibit 118.




                                                  47

 This document is subject to the provisions of the Privacy Aci of 1974, and may require redaction before
 disclosure to third parties. No redaction has been performed by the Office of Inspector General.
 Recipients of this report should nol disseminate or copy it without the Inspector Genen)'s approval.



          l(b)(7)(cl recalled that Conte's view was that although "there were apparently
 opportunities to have addressed this [conduct] before 2007[,1 ... we can't turn back the
 clock to bring us back to that time ... and so we have to look at the case as it presents
 itself today and decide whether the investigation is worth pursuing where we sit here
 today." It b)(7HCI Testimony Tr. at pg. 80. When the attorneys evaluated the conduct in
 2008, there were "several" reasons they believed the Metromedia investigation should be
 closed.. ld. at pg. 104. According to l{b)(7)(C)I the reasons for closing the investigation
 included a lack of evidence the company or any of the individuals committed fraud, the
 majority of the alleged conduct appeared to have occurred outside of the statute·of­
 limitations period, and Metromedia was no longer a public company registered with the
 Commission:

                  The first [reason] is that there was no evidence indicating that
                  Metromedia had committed fraud .... What we had, at most,
                  was evidence of reporting violations or delinquent financials
                  alid those were done by a company that no longer existed in
                  the form in which those violations might have occurred. The
                  second issue or reason was that most of the allegations or
                  complaints about Metromedia predated the statute of
                  limitations period. And again, given that the company no
                  longer existed, it didn't seem worth the investment of
                  resources that it would take to bring an enforcement action
                  solely to obtain injunctive relief against the company. We
                  did not have evidence indicating that any of the individuals
                  committed fraud or was individually responsible for the
                  reporting violations or anything else of that nature.

ld.

          l(b){7)(CI felt that developing evidence against individual executives would have
required a "significant investment of [SEC] resources to obtain documents and to travel
to eastern Europe and the former Soviet Union and Georgia ... and none of it seemed
like it. would further our goal of protecting the investors, given that" the company was
now privately held. ld. at pgs. 104-105. ~b)(7)(C) lielt similarly, stating, "We just didn't
think it was a good use of Commission resources to pursue something as old as this."
~7TJTestimonyTr. at pg. 76.	                          .

         G.	 The Metromedia Investigation Was Closed Over a Year After the
             Enforcement Attorneys Began the Closing Process

        Following the April 2008 meeting at which the Metromedia investigation was
discussed, the Enforcement attorneys began drafting a closing memorandum. However,
the investigation was not closed in the spring of 2008, in part, because Associate Chief
Accountan~(b)(7){C) ~xpressed the view that she did not have enough information to
support closing the investigation despite that the Enforcement Accounting Group had had



                                                    48

This document is SUbjKt to the provisions of the Privacy Act of 1974, and may require redaction before
disdosure to third parties. No redaction bas been perlormed by the Office of Inspector Ceneral.
RKipients oftbis report shoukl not disseminate or copy it wilhout the Inspector General's approval.



Mclaughlin's complaints since 2(X)5. !(b)(7XcIlTestimony Tr. at pgs. 43-44; [(b)(7)(C)I Draft
Referral ProfLIe and Summary, dated May 16,2008 (recommending further
investigation); Conte Testimony Tr. at pgs. 60.61. 36

         The Enforcement attorneys continued to take investigative steps while wraitingJor
a [mal anal ysis from the Enforcement Accounting Group. In May 2008, [(t.I)(7)(C) ,<b)(7)(C)                   I      -.
l<b)(7XC) Iand 1(t.I)(7XC) Ispoke to Mclaughlin's accountant. Exhibit 118. They learned
from the accountant that he had spent a limited time examining Metromedia's filings, had
not been able to reach substantive conclusions, and had not prepared a report. lei.; [(b)(7)(cl
Testimony Tr. at pgs. 34, 85. in April and May 2008,I(b)(7)(cl reviewed additional
materials obtained from Metromedia's counsel. Id. at pgs. 126~127.

        While the Enforcement attorneys appear to have done extensive work analyzing
Mclaughlin's complaints, there were additional investigative steps that the Enforcement
attorneys could have taken. For example, the attorneys did not request from
Metromedia's former auditors work papers thaI may have been in the United States.
Conte Testimony Te. at pgs. 47-48. In addition, the Enforcement attorneys did not take
testimony from Metromedia's officers and relied instead on transcripts of depositions
transcripts taken in civil litigation. Jd. Conte testified that had Enforcement decided to
move forward with the investigation, they would bave sought workpapers and testimony,
but he felt that the "resources and the circumstances, as they existed and as we
understood them, didn't justify taking any further investigative steps." Conte Testimony
Tr. at pgs. 47-50.

         Beginning in no later than June 2008, the attorneys tried without success to obtain
a final decision from the Enforcement Accounting Group about whether that group was
comfortable with the Metromedia investigation being closed. See, e.g., Exhibit 119;
Exhibit 120; Exhibit 121; !(b)(7)(C)] Testimony Tr. at pgs. 68-69. ICb)(7)(ClIrepeatedly
followed up with Enforcement Chief Accountant Markel, but Markel still had not
provided the Enforcement Accounting Group's final determination about the merits of an
investigation of Metromedia by January 2, 2009, when Markel left the SEC to join a
consulting film. 1(b)(7)(ClITestimorty Tr. at pgs. 52, 68-69,81; Markel Testimony Tr. at pg.
14; Exhibit 122;-Exhibitl23; Exh.ibit 121. Markel stated that she was waiting for (b 7)(C
to provide her with a firm opinion of the case before making a final decision, but she did
not believe she received one from l(b)(7)(C) I Markel Testimony Tr. at pgs. 69, 75.


36 {l:I)(7)(C) estified thai she fell that the Enforcement attorneys did nol view Mclaughlin's complaints as
having merit and that within the firS! few months of 2008, they had made up their minds that the
;;:i"~v'~st~igDation should be closedl)(7)tCf!estimony Tr. at pg. 36. Some witnesses stated Withey fell
l\!'     C reluctance: to close the IOvesbgation was not tied 10 the merits and arose because "she felt
somewhat responsible for not having ~ug!.Jpe case earlier" and because she was overly concerned about
Congress's interest in the investigation j (b)(1)(CJ jfestimony Tr. at pg. 49;j(b)(1)(C) ITestimony Tr. at pgs. 72­
73,75.
37 Althou h Markel stated she could nol recall whether she ever came 10 a position on lhe merits of Ihe
case, (b)(7)(cflrecalled that Markel "repeatedlYfxpr1 interest in closing the case when [she) met with
(Mar e1J." Markel Testimony Tr. at pg. IOS·{b)(7)(C) estimony Tr. at pg. 73.


                                                       49
This document is subject to the provisions of the Privacy Ad of 1974, and may require mlaction before
disclosure to third parties. No redaction bas been perfonned by the Office of Inspector General.
Recipients oftbis report sbould Dot diueminde or copy it without tbe I.spedor Genenl's .pprov.l




           b 7)(CI recalled that by November 2008, she was no longer opposed to closing the
Metromedia investigation. b C Testimony Tr. at pgs. 95-96. l(bX7)(Cllexplained that
she had "changed [her} mind" about oursuing an investigation due to ..the financial

debacle of the fall of2008." [til")("

(b)(7){C)



(bX7)(Cl       !stated that he did not have any reservations about closing the
investigation. l(bX7)(C>! Testimony Tr. at pg. 89.

         H.	 After Conducting an Independent Review, an Enforcement Deputy
             Director of Supported Closing the InVestigatiOD

        By January 2009, the Enforcement attorneys had prepared several drafts of a
closing memorandum for the Metromedia investigation. Conte Testimony Tr. at pg. 23.
Conte brought the Metromedia matter to the attention of fonner Enforcement Deputy
Director George Curtis ("Curtis") (who later became the Special Advisor to the Director
of the Division of Enforcement) in order to have Curtis provide a second review of the
issues McLaughlin had raised and to ascertain whether Curtis supported closing the
investigation. ld. at pg. 23; Testimony Transcript of George Curtis C'Curtis Testimony
Tr.") November 24, 2009, at Exhibit 10, at pg. 8-9.

        Curtis, a former law firm partner with over thirty years of experience,
independently reviewed Mclaughlin's allegations and ultimately supported the staWs
recommendation to close the investigation. Exhibit 114, at pg. 10. As part of his review,
Curtis examined the central documents from the investigation - including Mclaughlin's
submissions and draft closing memoranda - and interviewed Mclaughlin. ld. at pgs. 10·
II. Curtis stated that he and Chief Counsel McKown interviewed McLaughlin "to make
sure we had in mind all the points that he had raised." Curtis Testimony Tf. at pg. 50.

        At the end of his review, Curtis supported the Enforcement staff's
recommendation to close the investigation. Curtis testified that he supported closing the
investigation because of the age of the conduct, Metromedia's non.public status, and the
difficulty in obtaining evidence:

                 I had not seen anything that changed or that really relieved,
                 resolved my fundamental concern that this was very old
                 conduct,. that we were now dealing with a company that
                 had gone private, and that many of the sources of
                 infonnation and evidence would be, to the extent it was still
                 available, would be located in different parts of the world,
                 some of which were not particularly amenable to our
                 processes.

Curtis Testimony Tr. at pgs. 70·71.


                                                  50
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate Qr copy it without the Inspector General's approval.


       McKown expressed a view similar to that of Curtis, stating that the age of the case
was the primary reason she supported closing the investigation:

                 Q.	 And did you have an opinion of the merits of continuing
                       to investigate Metromedia?

                 A.	 I was very concerned about the age of the investigation.

                 Q.	   Why?

                 A.	 There were very serious allegations, but at that point in
                     time I didn't think that it merited putting resource­
                     continued resources into [it].


                 Q.	 And -. but you recall that the key reason that you
                       supported the closing decision was the age of the case?

                 A.	 Yes. That's my recollection. It was that I was concerned
                     about the age.

McKown Testimony Tr. at pgs. 25-26.

       The Enforcement staff presented their closing memorandum to Division of
Enforcement Director, Robert Khuzami. On August 6,2009, Khuzami expressed his
support for closing the investigation. Exhibit 125. The Metromedia investigation was
officially closed on October 8,2009. Exhibit 126.


                                              Conclusion

         In summary, the DIG identified significant flaws in the processes Enforcement
used to handle complaints and to close cases. The DIG found that from February 2005
through September 2007, the SEC received multiple complaints from McLaughlin that
raised serious allegations of financial fraud. The OIG found thai these complaints were
mishandled and mismanaged and, consequently, a review or investigation of
McLaughlin's allegations was not begun until two-and-a-half-years after the SEC first
received complaints from McLaughlin. Ultimately, Enforcement did provide an
appropriate review of McLaughlin's allegations. However, the OIG found that by the
time the review of McLaughlin's allegations began, it was too late for the SEC to take'
meaningful action because Metromedia had been sold, it was no longer a public company
registered with the Commission, and much of the conduct at issue had grown too old to
justify expending Commission resources to investigate. Thus, it was not until four-and-a­
half years after the SEC first received McLaughlin's complaints that Enforcement
decided not to pursue a full investigation of Metromedia and to close the case.



                                                   51
 This document is subject to the provisions of the Privacy Act of 1974, a~d may require redaction before

 disclosure to third parties. No redaction has been performed by the Office of Inspector General.

 Recipients of tbis report should not disseminate or copy it without tbe Inspector General's approval.




           The OIG understands that the SEC's complaint-handling process is currently
  being revamped as part of the SEC's Post-Madoff Reforms and that the new system
  should be implemented in 2010. In response to OIG Report No. 509, Investigation of
  Failure of the SEC to Uncover Bernard Madoffs Ponzi Scheme (August 31, 2009) and
  OIG Report No. 467, Improvements Needed Within the SEC's Division ofEnforcement
  (September 29,2009), Enforcement has represented that the SEC's new system for
  handling complaints will centralize the SEC's processes for intake, triage and analysis of
  all tips, complaints, and referrals received by the agency. Exhibit 127. Enforcement has
  also represented to the OIG that it has created a new Office of Market Intelligence that
  will consolidate the handling of all tips, complaints, and referrals that come to the
  attention ofEnforcement from both internal and external sources. Id. The OIG
. recommends that as part of these changes to the complaint handling system, the SEC and
  Enforcement make certain that: (a) the databases used to refer complaints are updated to
  accurateIy reflect the status of investigations and the identity of the staff handling such
  investigations; (b) complaints are reviewed, responded to, and referred for investigation
  in a timely and appropriate manner; and (c) referrals are monitored to ensure that they are
  being actively investigated and that complainants are being provided with accurate
  information.

         In addition, the OIG understands that Enforcement has altered its processes for
closing cases since the events described in this ROI took place. Responsibility for
closing cases has changed from Enforcement's Office of Chief Counsel to Enforcement's
Office of Collections and Distributions. Joan McKown Testimony Tr. at pgs. 15-16. The
OIG also understands that Enforcement is attempting to make its case-closing process
more efficient by converting it from a paper-based system to an electronic one. Id. We
recommend as part of the changes to the case-closing system, that Enforcement ensure
that (a) cases that are not actively being pursued are closed promptly; (b) Enforcement
staff have access to accurate information about the status of investigations and the status
of staff requests to close investigations; and (c) staff at all levels be appropriately trained
in case-closing procedures.

       Accordingly, the OIG is referring this ROJ to the Director of Enforcement, the
Director of OlEA, the ASsociate Executive Director for Human Resources, the Associate
General Counsel for Litigation and Administrative Practice, and the Ethics Counsel. We
recommend that SEC Management carefully review the portions of this ROI that relate to
performance deficiencies by those employees who still work at the SEC, so that
appropriate action (which may include performance-based action) is taken, on an
employee-by-employee basis, to ensure that future complaints are better handled and that
the mistakes outlined in this ROI are not repeated.




                                                    52

This document is subject to tbe provisions of the Privacy Act of 1974, and may require redaction before
disclosure to tbird parties. No redaction has been performed by the Office oflnspector General.
Recipients of this report should not disseminate or copy it without tbe Inspector General's approval.




Submitted:
                eJekre~                              Date:     2(2' /20/0
                                                                  ·      7
Concur:
                 ~~                                  Date:      idJ. :J.0, dOlO
Approved:        Z~
                'H. David Kotz
                                                     Date:    PC,SI ~S~I                 Q




                                                   53

